<html>
<title> - FEDERAL BUREAU OF INVESTIGATION (PART II)</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
               FEDERAL BUREAU OF INVESTIGATION (PART II)

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 23, 2008

                               __________

                           Serial No. 110-99

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
41-904 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel


                            C O N T E N T S

                              ----------                              

                             APRIL 23, 2008

                                                                   Page

                           OPENING STATEMENTS

The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     1
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Ranking Member, Committee on the Judiciary.     2
The Honorable Robert C. (Bobby) Scott, a Representative in 
  Congress from the State of Virginia, and Member, Committee on 
  the Judiciary..................................................     3
The Honorable Louie Gohmert, a Representative in Congress from 
  the State of Texas, and Member, Committee on the Judiciary.....     5
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas, and Member, Committee on the Judiciary     7

                               WITNESSES

The Honorable Robert S. Mueller, Director, Federal Bureau of 
  Investigation, Washington, DC
  Oral Testimony.................................................     8
  Prepared Statement.............................................    11

                                APPENDIX
               Material Submitted for the Hearing Record

Response to Post-Hearing Questions from the Honorable Robert S. 
  Mueller, Director, Federal Bureau of Investigation, Washington, 
  DC.............................................................    87


                    FEDERAL BUREAU OF INVESTIGATION 
                               (PART II)

                              ----------                              


                       WEDNESDAY, APRIL 23, 2008

                          House of Representatives,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:21 a.m., in 
Room 2141, Rayburn House Office Building, the Honorable John 
Conyers, Jr. (Chairman of the Committee) presiding.
    Present: Representatives Conyers, Scott, Watt, Lofgren, 
Jackson Lee, Waters, Delahunt, Wexler, Cohen, Johnson, Sherman, 
Baldwin, Weiner, Davis, Wasserman Schultz, Ellison, Smith, 
Sensenbrenner, Coble, Gallegly, Goodlatte, Chabot, Lungren, 
Keller, Issa, Pence, Forbes, King, Franks, and Gohmert.
    Staff present: Robert Reed, Majority Counsel; Perry 
Apelbaum, Majority Staff Director and Chief Counsel; Caroline 
Lynch, Minority Counsel; and Sean McLaughlin, Minority Chief of 
Staff and General Counsel.
    Mr. Conyers. Good morning. The Committee on the Judiciary 
will come to order. We are delighted to have the director of 
the Federal Bureau of Investigation, Mr. Robert Mueller, before 
us.
    And we begin with some observations from our Members of the 
Committee, myself, Ranking Member Smith, Crime Subcommittee 
Chairman Scott and Judge Gohmert.
    Federal Bureau of Investigation is the critical cog in our 
Nation's Federal law enforcement efforts. The Bureau has 
important powers that include the ability to combat crime, 
conduct surveillance on our citizens and initiate 
investigations.
    These powers have grown exponentially since the tragedies 
of September 11, and the question is how wisely is the Bureau 
using its vast resources and how appropriately are they being 
employed.
    With that in mind, the areas of my most concern deal with 
the use and misuse of National Security Letters. It is widely 
known that the Bureau has on numerous occasions issued National 
Security Letters without proper certification or approval 
memoranda and have improperly uploaded and retained information 
on private citizens. How do we deal with that?
    It is also no secret that the Members of this Committee, on 
a bipartisan basis, have expressed serious concerns about the 
FBI wiretapping of Members of Congress, particularly in 
connection with the investigation of Member Renzi.
    The surveillance of this nature raises serious 
constitutional questions that involve the speech and debate 
clause, and we should have a discussion about it.
    There are similar questions presented in the case of the 
search of Representative Jefferson of Louisiana's office, and 
the circuit court was forced to intervene and overrule the 
department in that regard.
    Whether the phone that is being tapped is public or 
private--whether it is or isn't, it behooves the department and 
the FBI to take constitutional issues seriously and develop 
protocols and procedures with the legislative branch that 
protect the interests of all sides.
    I would also like to discuss here this morning the subject 
of several inmates held in solitary confinement in the maximum 
security Louisiana State Penitentiary at Angola for 36 years. 
And I have asked as a result that the FBI file on this matter 
be revealed--released to this Committee immediately.
    And then, of course, we are still grappling with this 
question of the redaction of the notes related to the infamous 
Ashcroft hospital visit and the warrantless wiretapping 
program.
    We got records, but they were so redacted that they make no 
sense coming or going. It seems to me that we can get a more 
understandable version without trying to go into the 
conversations between the President and the Attorney General or 
anybody else.
    And so I would now like to yield to the gentleman from 
Texas, the Ranking Member, Mr. Lamar Smith.
    Mr. Smith. Thank you, Mr. Chairman. And, Mr. Chairman, like 
you, I welcome the director of the FBI to today's hearing.
    For the last 7 years, the FBI has faced the task of 
balancing its expanding national security and counterterrorism 
responsibilities with its traditional law enforcement duties.
    And although this task has presented challenges to the FBI, 
the success of the dedicated men and women of the Bureau is 
evident from one simple fact. The United States has not 
suffered another terrorist attack.
    It is easy to assume that the terrorist threat has lessened 
or even disappeared because we have not had an attack since 
September 11, 2001.
    It is easy to become complacent about the need for vigilant 
intelligence gathering because we rarely read in the paper or 
hear on the news about the number of terrorist plots that have 
been thwarted by the FBI and other law enforcement and 
intelligence agencies.
    But the threat remains. And it is important that Congress 
ensure that our law enforcement and intelligence agencies are 
given the tools and the resources they need to protect us all. 
It is also important that Congress ensure that these are used 
properly.
    One powerful tool is our ability to gather intelligence to 
learn what our enemies are planning before it is too late. The 
Foreign Intelligence Surveillance Act, FISA, provides the 
framework for gathering foreign intelligence. But as we learned 
a year ago, it is outdated.
    Last August, Congress passed the Protect America Act to 
modernize FISA. In February, that law expired. And in August, 
so, too, will the surveillance authorized under the Act.
    Congress has no greater or more urgent responsibility than 
to enact long-term common-sense legislation to modernize FISA 
and ensure that our Nation is safe from future attacks.
    Our national security relies on other information-gathering 
tools as well, including National Security Letters. National 
Security Letters allow the FBI to request the production of 
records held by third parties and are generally used to obtain 
telephone billing records, credit reports or financial 
information.
    Last year, the Department of Justice Inspector General 
issued a report citing significant problems with the FBI's use 
of National Security Letter authority from 2003 to 2005. 
Recently, the Inspector General has released a follow up to its 
March 2007 report.
    According to this report, the FBI has made significant 
progress implementing the Inspector General's recommendations 
and in adopting other corrective actions to its national 
security authority.
    The recent report is encouraging and shows that the FBI has 
taken strong action to ensure that its investigative efforts do 
not infringe on the privacy of individual Americans.
    Despite the FBI's demanding counterterrorism efforts, we 
cannot lose sight of its traditional crime-fighting 
responsibilities. After a dramatic rise in violent crime that 
peaked in the early and mid 1990's, the most recent data 
reveals that the Nation's crime rates are decreasing.
    Though violent crime is slightly down nationwide, trends in 
crime are changing. In the 1990's, gang violence was 
traditionally found in urban communities of major cities like 
Los Angeles and New York City. But now we are seeing a rise of 
gang violence in suburban communities.
    The methods for committing a crime also are changing. The 
Internet has transformed traditional brick-and-mortar crimes 
into virtual crimes committed by faceless criminals with no 
borders or boundaries.
    Identity theft, child pornography, organized retail crime, 
theft of intellectual property and even drug trafficking can 
now be committed with a few computer strokes.
    Last year, I joined Chairman Conyers in introducing H.R. 
4175, the Privacy and Cybercrime Enforcement Act of 2007. Our 
Nation has become increasingly vulnerable to cyberattacks as 
the U.S. economy and critical infrastructures grow more and 
more reliant on interdependent computer networks and the 
Internet.
    Large-scale computer attacks on our critical infrastructure 
and economy could have devastating results. Personal data 
security breaches are being reported with increasing 
regularity. During 2006 alone, personal records for 
approximately 73 million people were lost or stolen.
    I look forward to hearing from Director Mueller today about 
improvements in Bureau operation, the continuing need to pursue 
counterterrorism and traditional law enforcement, and the FBI's 
efforts to investigate the growing threat of cybercrime.
    Thank you, Mr. Chairman, and I will yield back.
    Mr. Conyers. Thank you, Lamar Smith.
    The Chair recognizes the gentleman from Virginia, the 
Chairman of the Crime Committee, Bobby Scott.
    Mr. Scott. Thank you. Thank you, Mr. Chairman.
    And I want to thank the FBI director for appearing with us 
today.
    Like you, Mr. Chairman, I believe that while the FBI should 
be able to get whatever information is necessary for the fight 
against terrorism, there also needs to be meaningful oversight.
    First, we need traditional oversight over the Bureau's NSL 
powers. At last year's oversight hearing, we heard about the 
Inspector General's findings of illegal and improper use of 
National Security Letters to obtain phone and financial records 
and that required reports to Congress were inaccurate.
    Last month, the Inspector General released another report 
which noted the Bureau's own reviews confirmed numerous 
deficiencies in the process, including an almost 10 percent 
rate of unlawful violations which the Bureau should have 
reported to the President's Intelligence Oversight Board.
    The next question, of course, is where is the oversight in 
this process. We have learned from the recent I.G. report that 
the Bureau has implemented internal policies and procedures, 
but it turns out that the checks and balances are presumably 
within the Bureau itself.
    Checking with subordinates is not a check and balance. Some 
of us think that check and balance means that you check with 
another branch of government.
    We always have to think about what would happen if such 
power, such as obtaining information pursuant to an NSL, is 
subject to political whims, and that concern is not just 
hypothetical.
    Republican-appointed officials have accused this 
Administration of firing U.S. attorneys because they did not 
indict Democrats in time to affect an upcoming election. We 
have been unable to ascertain the truth of the allegation for 
several reasons.
    First, high-ranking Administration officials questioned the 
credibility of the Attorney General's original response to the 
allegation. Another high-ranking Justice Department official 
quit. Another pleaded the fifth. And White House officials have 
refused to respond to subpoenas.
    Second, we need to determine the necessity behind the broad 
NSL power itself. Some 140,000 NSL requests over the 3-year 
period may not have been necessary--140,000 requests. And all 
of these requests related to terrorism.
    At last year's oversight hearing, the director testified 
that traditional FISA warrants would be too burdensome to 
acquire the information gained from an NSL. But are we 
bypassing traditional court oversight to engage in over-
collection of information?
    We now understand that the Defense Department may be using 
FBI NSL power to access records that ordinarily it could not be 
permitted to obtain.
    And finally, we have been told that while the Bureau is 
asking to continue its broad power to fight against terrorism, 
it is losing critical information under the traditional powers 
it has.
    The Inspector General found, for example, that some 
intercepted information acquired by FISA order was lost due to 
the failure of the FBI to pay its phone bill.
    Finally, we have to determine how the Bureau is using the 
resources it has. If additional resources are needed to combat 
terrorism, we should be coming up with new resources rather 
than transferring powers, sacrificing the fight against white-
collar crime and violent crime.
    We also need to make sure that other critical priorities 
and responsibilities are not left behind.
    So I look forward to seeing what the Bureau is doing in the 
fight against consumer identity theft, the investigation of 
shootings of innocent civilians and the assault and rape 
allegations of Americans serving our country in Iraq.
    Thank you, Mr. Chairman, and I look forward to the Bureau's 
responses.
    Mr. Conyers. Thank you, Chairman Scott.
    The Chair recognizes the Ranking Member of the Crime 
Committee, Judge Louie Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman, and I appreciate your 
holding this important hearing.
    The question I found myself asking back during my days as a 
district trial judge, when there were allegations of 
impropriety by a State of Texas law enforcement officer with 
whom the FBI had been working--who investigates the 
investigators when the FBI is involved and recuses itself?
    We have heard stories of Attorney General Robert Kennedy 
authorizing wiretaps of Martin Luther King, Junior, which 
raises an issue of if there were probable cause to believe that 
the FBI were illegally wiretapping, then who can wiretap the 
FBI to find out? Frankly, I don't know.
    We have learned in the recent past that when the FBI, as 
part of the executive branch, had concerns about someone in the 
legislative branch, the FBI believed it was appropriate to make 
an intrusion into a congressional office for the first time in 
over 200 years.
    Speaking hypothetically, if there were probable cause to 
believe the FBI had violated some law which made an intrusion 
into an FBI office in Washington necessary, who would be in a 
position to do that?
    These hypothetical questions should point out just how 
critical it is that our FBI get things right. It seems that 
since the judiciary branch and the legislative branches do not 
have trained undercover agents in them, it is very difficult to 
adequately bring a wayward FBI into line if we were to ever 
have that occur.
    I am fortunate to have known and worked with so many FBI 
agents over the years with the different hats I have worn, and 
I have known them well enough to know that I would have no 
hesitancy whatsoever in putting my life in their hands. I trust 
them that much.
    We also know that we have before us here testifying today 
the current FBI director, who is a Marine, a decorated Vietnam 
war hero, as well as a brilliant attorney and prosecutor.
    We can learn an important lesson from the biblical account 
of King David, who was the only man ever said in the Bible to 
have had a heart after God's own. The lesson is this. Even the 
greatest people in the world, if left without adequate 
accountability, can give in to the temptation to abuse power.
    That recognition was part of the brilliance of our 
Constitution, which tried to address the problem of 
accountability by creating the three separate but supposedly 
somewhat equal branches, to help keep the other branches in 
check.
    That is how we got this hearing to have the director of an 
independent agency over here testifying about what has gone 
right and what has gone wrong on some of these issues.
    Former Attorney General Gonzales had testified, and during 
his testimony here on Capitol Hill last year, he had said that 
there were no known abuses of the dramatic investigative tool 
called the National Security Letter as far as he was not 
aware--because he was not aware of the Inspector General's 
report.
    That I.G. report indicated that there had been basically 
some significant problems of abuse with the NSLs. I recall 
Director Mueller saying, back when the abuses of this very 
invasive tool were brought to light, that he would have to take 
full responsibility for the inadequate supervision and training 
that had led to such abuses.
    To most Americans, the power of an FBI agent to simply send 
a letter without any court authority or warrant demanding 
private records in the possession of such person or entity 
pertaining to another individual is almost judicial in scope 
and probably was not anticipated by our constitutional 
forefathers under normal circumstances.
    It is a bit frightening to most people to have such a 
demanding letter also state within the letter that that person 
in the letter's address would commit a Federal crime if he were 
to disclose that he even received the letter, the only 
exception being that he could discuss it with his attorney.
    That is why such oppressive power must be used sparingly, 
with great discretion and oversight.
    But we have also heard previously that the personnel policy 
that this director instituted includes a 5-year up-or-out 
policy.
    Essentially, that program prevents agents in a supervisory 
capacity with many years of experience and training from using 
their experience and training in that capacity for more than 5 
years, after which they must either move to Washington, D.C., 
retire or take a demotion from their position.
    As I understand it, that policy has forced the loss of the 
FBI--of centuries of experience by those who simply would not 
move to Washington but chose to take their vast and valuable 
experience into the private sector or even be demoted.
    In the last hearing with the director, I had understood him 
to say that because of that policy, though, he has been thanked 
by junior or younger agents who were made supervisors who never 
thought that they would have had a chance to move up so soon, 
and I have no doubt that that thanks is abounding by those 
younger agents.
    I also note that if that policy of a 5-year limit on 
supervisory personnel were imposed on the director, it would 
mean the director would have retired as director back--
September 4th of 2006, yet here we are.
    In any event, last week we had a hearing in this very room. 
The director of the Georgia Bureau of Investigation testified. 
That is Vernon M. Keenan.
    And I couldn't help but ask him about their experience with 
moving people around, and he said the following, ``I have 
discussed with FBI officials before my belief that they would 
be much more effective if they left their supervisors in duty 
stations longer to build those relations. Law enforcement is 
based around personal relationships and partnerships, and you 
have to have a stabilized workforce to build those 
relationships. The FBI is a wonderful law enforcement agency. 
Our agents to be a GBI agent is the same requirements to be an 
FBI agent. We have found out over the years that our most 
productive agents, most effective agents, are those that live 
and work in a community that have an opportunity to build 
public trust and work with their counterparts, and that is 
relationships.''
    Some others have noted that perhaps the 5-year up-or-out 
policy should have been scrapped in 2005 along with the 
multimillion-dollar computer system called the Virtual Case 
File, or VCF.
    The Justice Department's Inspector General, in a February 
2005 audit, blamed the Virtual Case File's program's meltdown 
on poor management and oversight, design modifications during 
the project and bad I.T. investment practices.
    The I.G. also apparently reported that rapid turnover in 
important senior positions have hurt the FBI's ability to 
manage I.T. effectively.
    In any event, Director, you will now talk about my concerns 
in this area, but we are pleased to have a hero such as 
yourself, a true patriotic American, here testifying before us, 
and I look forward to your testimony.
    Thank you, sir.
    Mr. Conyers. Thank you.
    Does any other Member wish to bring a welcome to the 
director before we begin this morning?
    Yes, sir--oh, Ms. Sheila Jackson Lee?
    Ms. Jackson Lee. Thank you.
    Mr. Conyers. The gentlelady is recognized.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Let me again welcome the director, and it is good to see 
you, and we thank the FBI for its service in particular, and I 
always want to make note of the Houston office. We have had a 
series of great special agents in charge, and we are obviously 
benefitting from that leadership again.
    One of the principles of the FBI mandate or mission is to 
protect the civil rights of all Americans. And so in the course 
of this morning, and hopefully in the opportunity I may have to 
question, let me just make mention that I think we have had a 
series of harsh circumstances. I think we still have rising 
hate crimes in America.
    I think one of the sadder tales of justice was Jena 6, and 
I would be interested in how quickly the FBI became involved 
when the actions were taken by the high school students who 
happened to be White and provoked the situation. And there 
seemed to be no intervention at that time.
    And whether or not the relationship between the U.S. 
attorney and the FBI is the horse before the cart or otherwise, 
the FBI engaged in the investigation--if so, I think there was 
a great failure in that community.
    I think the other question, of course, is how do we assess 
or how do we protect even persons who experience abuse in an 
incarcerated situation where their civil rights have been 
violated--prison abuse, for example.
    It is notorious in the State of Texas. We have previously 
been under a Federal court order some many years ago. But we 
face a situation where there is either abuse or inadequacy, and 
my question is the collaboration or the interaction with the 
FBI or special agent in charge.
    So I welcome you. I wanted to make note that my State in 
particular faces a number of, I think, serious issues that its 
youth commission--sexual abuse on children inside the juvenile 
system and, as well, the prison system, the State prison 
system.
    I believe that the FBI is a better organization when they 
are out front fighting for the civil rights of all Americans. 
And I hope that we will have a chance to have that discussion.
    With that, Mr. Chairman, I yield back.
    Mr. Conyers. Thank you very much.
    Witness Robert Mueller III, director of the Federal Bureau 
of Investigation, has held this post since September 4, 2001.
    He has a long and distinguished career in public service 
between Princeton and the University of Virginia Law School. He 
served as an officer in the Marines and was heavily decorated 
for his duties there. He has been an assistant United States 
attorney in San Francisco, in Boston and in Washington, D.C.
    He served as assistant Attorney General for the criminal 
division in the early 1990's, returned to San Francisco in 1998 
as the United States attorney, has served two stints in private 
practice as a partner in two prominent Boston firms, was called 
back to Washington early in 2001 to be acting deputy Attorney 
General, where he served until assuming his current post.
    Director Mueller, we all welcome you. We will look forward 
to your comments.

TESTIMONY OF THE HONORABLE ROBERT S. MUELLER, DIRECTOR, FEDERAL 
            BUREAU OF INVESTIGATION, WASHINGTON, DC

    Mr. Mueller. Good morning, and thank you for having me. 
Chairman Conyers, Representative Smith, Members of the 
Committee, it is an honor to be here.
    I have submitted a written statement for the record, and I 
ask that it be made a part of the record.
    Mr. Conyers. Without objection.
    Mr. Mueller. Sir, as you are aware, the FBI's top three 
priorities are counterterrorism, counterintelligence and 
cybersecurity. These priorities are critical to our national 
security and to the FBI's vital work as a committed member of 
the intelligence community.
    But important also are our efforts to protect our 
communities from the very real threat of crime, especially 
violent crime.
    In the counterterrorism arena, al-Qaida and related groups 
continue to present a critical threat to the homeland. But so, 
too, do self-radicalized homegrown extremists. They are 
difficult to detect, often using the Internet to train and 
operate.
    But here at home our domestic joint terrorism task forces 
and abroad through our legal attaches and our international 
partners, we together share real-time intelligence to fight 
terrorists and their supporters.
    With regard to the counterintelligence threat, protecting 
our Nation's most sensitive secrets from hostile intelligence 
services or others who would do us harm is also at the core of 
the FBI mission. In furtherance of this, we reach out to 
businesses and universities. We join forces with our 
intelligence community partners. And we work closely with the 
military to help safeguard our country's secrets.
    Cyberthreats to our national security and the intersection 
between cybercrime, terrorism and counterintelligence is 
increasingly evident. Today, the FBI's cyberinvestigators focus 
on these threats as we partner with others in government and 
industry.
    One way we do this is through our sponsorship of a program 
called InfraGard, an alliance of more than 23,000 individual 
and corporate members who help identify and prevent cyber 
attacks.
    I am mindful of your ongoing interest in the FBI's progress 
in building an intelligence program while combating these 
threats, and the FBI has made a number of changes in the last 
several years to enhance our capabilities.
    Among them, today intelligence is woven throughout every 
FBI program and every operation, and then utilizing this 
intelligence we have successfully broken up terrorist plots 
across the country, from Portland, Oregon; Lackawanna, New 
York; Torrance, California; Chicago, Illinois; to the more 
recent Fort Dix and JFK plots.
    We have increased and enhanced working relationships with 
our international partners, sharing critical intelligence to 
identify terrorist networks and disrupt planned attacks around 
the globe.
    We have doubled the number of intelligence analysts on 
board and tripled the number of linguists. We have tripled the 
number of joint terrorism task forces from 33 in September of 
2001 to over 100 now.
    And these task forces combine the resources and expertise 
of the FBI, the intelligence community, military and State, 
local and tribal law enforcement.
    And another critical and important part of the FBI's 
traditional mission is quite clearly our work against criminal 
elements in our communities, very often and most useful in task 
forces with our Federal, State and local and tribal partners.
    I will say that public corruption remains the FBI's top 
criminal investigative priority. In the past 2 years alone, we 
have convicted over 1,800 Federal, State and local officials 
for abusing their public trust.
    Similarly, our work to protect the civil rights guaranteed 
by our Constitution is a priority which includes fighting human 
trafficking as well as our focus on the Civil Rights Cold Case 
Initiative.
    Gangs and violent crime continue to be as much a concern 
for the FBI as it is for the rest of the country. The FBI's 143 
Safe Streets Violent Gang Task Forces leverage the unique 
knowledge of State and local police officers with Federal 
investigative resources.
    We also sponsor 52 additional violent crime and interstate 
theft task forces as well as 16 safe trails task forces 
targeting crime in Indian Country.
    The FBI combats transnational organized crime in part by 
linking the efforts of our Nation's 800,000 State and local 
police officers with international partners through the FBI's 
legal attache offices, of which we have currently over 60 all 
over the world.
    And finally, major white-collar crime, from corporate fraud 
to fraud in the mortgage industry, clearly continues to be an 
economic threat to the country.
    For example, in recent years, the number of FBI pending 
cases focusing on mortgage fraud, including those associated 
with subprime lending, has grown nearly 50 percent to over 
1,300 cases. Roughly half of these have losses of over $1 
million and several have losses over $10 million.
    We will continue our work to identify large-scale industry 
insiders and criminal enterprises engaged in systemic economic 
fraud.
    We recognize that for the past 100 years of the FBI's 
history our greatest asset has been our people, and we are 
building on that history with a comprehensive restructuring of 
our approach to intelligence training for both our professional 
intelligence analytical core as well as for new FBI agents 
coming out of Quantico.
    We have and we will continue to streamline our recruiting 
and hiring processes to attract persons having the critical 
skills needed for continued success.
    I also remain committed to ensuring our employees have the 
information technology infrastructure they need to do their 
jobs. This includes the continuing successful development of 
the Sentinel case management system as well as other I.T. 
upgrades.
    I am very well aware of your concerns that we always use 
legal tools given to the FBI fully but also appropriately. 
After the Department of Justice reviewed the use of National 
Security Letters, we instituted additional internal oversight 
mechanisms to ensure that we as an organization minimize the 
chance of future lapses.
    Among the reforms was the creation of a new Office of 
Integrity of Compliance within the Bureau to identify and 
mitigate such potential risks.
    In closing, the FBI recognizes that it is, in some sense, a 
national security service responsible not only for collecting, 
analyzing and disseminating intelligence, but most particularly 
for taking timely action to neutralize threats to this country, 
either threats from a terrorist, from a foreign spy or from a 
criminal.
    And in doing so, we also recognize that we must properly 
balance civil liberties with public safety in pursuing our 
efforts, and we will continually strive to do so.
    Mr. Chairman, Representative Smith, Members of the 
Committee, I appreciate the opportunity to testify before you 
this morning, and I do look forward to answering your 
questions. Thank you, sir.
    [The prepared statement of Mr. Mueller follows:]

         Prepared Statement of the Honorable Robert S. Mueller

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Conyers. Thank you very much, Director Mueller.
    The thing that bothers many of us most is the National 
Security Letters, a very large embarrassment to all of us.
    What can we do to ensure that the field office directors 
share a commitment to rectifying the problems pertaining to the 
abuse of National Security Letters when it seems like at the 
top we always seem to work out agreements but they don't seem 
to drift down to the men and women in the field?
    Mr. Mueller. Well, let me review, if I could, what steps we 
have been taking since the first report came out a year, 1\1/2\ 
years ago. As I mentioned in my remarks, we established an 
Office of Integrity and Compliance.
    We had procedures in place for addressing National Security 
Letters, but there were lapses throughout the country in those 
procedures.
    We now have an Office of Integrity of Compliance that looks 
not just at NSLs but other requirements under the law, that 
red-teams it to assure that we identify the risks and find and 
identify and fix those risks before it gets--before somebody 
else, such as the Inspector General, comes and looks at it, so 
that we can identify our vulnerabilities and address them early 
on.
    We have created new database and software for accurate 
reporting to Congress on the numbers of NSLs and the types of 
NSLs.
    All of our National Security Letters are now reviewed by 
the counsel in each one of our offices.
    We have barred the use of exigent letters, which created 
the problem that was found by the Inspector General.
    And we have provided comprehensive guidance and training to 
our field offices in the last year.
    I believe that in the testimony that was given before a 
Subcommittee of this Committee a week or so ago--and I will 
quote from the testimony given by Glenn Fine.
    He says that, ``We believe the FBI has evidenced a 
commitment to correcting the serious problems we found in our 
first report on National Security Letters and has made 
significant progress in addressing the need to improve 
compliance in the FBI's use of the NSLs.''
    Now, I will be quick to say he also said that the 
department's measures are not yet fully implemented--we are in 
the process of implementing all of those that I described--and 
that the I.G. will be looking to assure full implementation of 
those measures.
    So in this case, I think we have taken the steps that are 
necessary to assure that this will not happen again, Mr. 
Chairman.
    Mr. Conyers. What about the Congressman Renzi, Congressman 
Jefferson intrusions, wiretap of Renzi's phone with other 
Members of Congress' conversations, and Congressman Jefferson's 
office being broken into?
    Mr. Mueller. Well, I would start with Congressman 
Jefferson's office. The search that was conducted of his office 
was done pursuant to a court order. The full facts were exposed 
to the district court judge. The judge issued the search 
warrant understanding all of the facts, and the search was done 
pursuant to that court order.
    Now, that was reviewed by the circuit court, who in its 
opinion indicated that the protocols we followed were not 
adequate to preserve the privilege.
    And so we are, with the Department of Justice, looking at 
protocols, and my understanding is the department is discussing 
with elements of the Congress appropriate protocols.
    Mr. Conyers. I see. Well, can every Member of the Congress 
and the United States Senate assume that we could still get 
broken into like Jefferson until this is resolved?
    Mr. Mueller. Well, Mr. Chairman, let me first say that I do 
not agree with the characterization as ``broken into.'' This 
was a validly issued search warrant from a court, so it was the 
execution of a search warrant.
    And in the future----
    Mr. Conyers. Well, okay. So your answer is yes, we can 
expect that we could get busted, too.
    Mr. Mueller. We understand that there has been an 
intervening circuit court opinion that requires us to follow 
protocols, although it is not clear what those protocols are, 
but we are very sensitive to not only the debate clause but 
also to the circuit court opinion that said that we did not 
have the adequate protocols in place.
    Now, what those protocols will be is a subject of 
discussion between, my understanding, Congress and the 
department.
    Mr. Conyers. Well, I am glad you are sensitive. We are, 
too.
    Mr. Mueller. Also, with regard to the other question you 
asked in terms of the wire interception of a phone with regard 
to a recent investigation, this was an interception that was 
approved by a court, and it was an interception on a phone that 
was registered to a company in Phoenix, Arizona.
    And while not being able to speak specifically about an 
ongoing investigation, an ongoing prosecution, I can say that 
that phone was a phone that was registered to a corporation in 
Phoenix, Arizona.
    And that in order for us to intercept, we, again, have to 
go to a court, make a probable cause showing, and that any 
interception that is maintained by us is reviewed by the court 
generally every 10 days or 15 days, and there are minimization 
procedures that are----
    Mr. Conyers. What about the other congressmen, if there 
were any others, whose conversations were intercepted?
    Mr. Mueller. Well, when one does a wiretap, there is a 
statutory obligation to inform persons who may have been 
overheard. Although they may not be the target of the 
interception, there is an obligation that you notify those 
persons that they were overheard.
    Mr. Conyers. And has that occurred?
    Mr. Mueller. Yes.
    Mr. Conyers. Could you make me sleep more comfortably 
tonight by saying that also the conversations were redacted, 
were taken out, since the speech and debate clause, I presume, 
operates on personal telephones as well as government 
telephones?
    Mr. Mueller. Well, I am not certain what minimization 
procedures were in place, and I am not sure how they were 
applied in that particular case. And even if I did know, 
because it is currently in litigation, I probably would not be 
able to discuss it in this forum.
    Mr. Conyers. But it is the obligation of the FBI to know. I 
mean, where do--do you have someplace else we can go to find 
out the answer to this question?
    Mr. Mueller. I would have to get back to you on that.
    Mr. Conyers. Okay.
    Lamar Smith?
    Mr. Smith. Thank you, Mr. Chairman.
    First of all, Director Mueller, I would like to 
congratulate you and other law enforcement agencies and other 
information-gathering agencies as well for what you have done 
to prevent another terrorist attack since September 11, 2001.
    It looks like to me that you all are batting 1,000, having 
prevented any other terrorist attack, and I hope that that can 
continue as well.
    My first question goes to a recent report by Fox News, and 
I would like to read you the beginning of the report and ask 
you to comment to the extent that you can. ``The FBI has 
narrowed its focus to about four suspects in the 6\1/2\-year 
investigation of the deadly anthrax attacks of 2001, and at 
least three of those suspects are linked to the Army's 
bioweapons research facility at Fort Detrick in Maryland.''
    Now, that is an ongoing investigation, so I know you can't 
go into any detail, but can you tell us, for example, when that 
investigation might be concluded, whether it might be this year 
or not, or anything else you can tell us about it?
    Mr. Mueller. What I can say, and all I can say, about it--
it is an ongoing investigation. We have a number of agents and 
postal inspectors assigned to it, as we have since the incident 
occurred back in 2001 and 2002. And we continue to push the 
investigation hard.
    I cannot give you a time frame, however.
    Mr. Smith. Okay. I understand. Let me go to the subject of 
violent crime, which, as you know, has decreased slightly in 
2007. I think violent crime is down 1.8 percent.
    You mentioned in your testimony a few minutes ago that one 
of those reasons are the task forces that have been created. 
Usually in a slow economy, violent crime increases. To what do 
you attribute the slight decrease in violent crime that we see 
across the country?
    Mr. Mueller. I think what we have seen over the last year 
is some spikes in some cities, some decrease in other cities.
    I do believe one of the most effective tools in addressing 
violent crime is having Federal, State and local task forces, 
and support of Congress of those task forces and of the 
participation of State and local law enforcement on those task 
forces.
    We currently have a total of 182 violent gang crime task 
forces around the country, and I think to a one they are 
perceived to be effective not only by the Bureau and our other 
Federal partners, but also by State and local law enforcement.
    And to the extent that funding has come through from the 
Federal side of the house, I am tremendously supportive of 
those funds going to State and local law enforcement on 
condition that they be utilized in the task force arena, 
because I do believe we are most effective when we sit shoulder 
to shoulder and address these areas together, whether it be on 
joint terrorism task forces or on violent crime task forces.
    I might also add, there are a number of factors that go 
into the rise or fall of violent crime in a particular region 
or a particular city. The extent of incarceration is one of 
those factors--drug abuse or usage, the prevalence of gangs.
    There are a number of various factors that may result in a 
rise of violent crime in one community, whereas a community 
several miles down the road does not see the same type of 
spike.
    Mr. Smith. Okay. Thank you, Director.
    One type of crime that unfortunately is on the rise is 
Internet child pornography, and we have passed a number of laws 
to address that, and I wonder if you have any suggestions for 
us as to any other legislation that might be helpful to you in 
order to prosecute the Internet child pornography.
    Mr. Mueller. A couple things about our capabilities in that 
regard. We currently have approximately 270 agents who are 
working what we call Innocent Images. We have a task force 
operating out of Maryland which is an international task force 
in which we have had agents from some 21 countries who are 
participating on this task force.
    We recently had a takedown several months ago of almost 60 
individuals who, over a period of 15 years, had over 400,000 
images, pornographic images, child pornography, that they had 
encrypted and thought they were safe from the authorities.
    And I think close to 60 persons were arrested in the United 
Kingdom, in Australia, in Germany and the United States as we 
busted that up.
    I know the question that you asked at the end is what do 
you need or what will we need to be more----
    Mr. Smith. Are current laws adequate, or do we need to do 
more, correct?
    Mr. Mueller. And in each of these cases it is important 
that we have access to the records, and records retention by 
ISPs would be tremendously helpful in giving us the historical 
basis to make a case in a number of these child predators who 
utilize the Internet to either push their pornography or to 
lure persons in order to met them.
    Mr. Smith. Okay. Thank you, Director. That is helpful. I 
think a number of us may well follow up on that suggestion. The 
ability to retain those records sounds to me like it is 
crucial. Thank you.
    Thank you, Mr. Chairman.
    Mr. Conyers. Crime Subcommittee Chairman Bobby Scott?
    Mr. Scott. Thank you, Mr. Chairman.
    And thank you to Director Mueller for being with us today. 
At our last meeting, we discussed the needs of the FBI in the 
area of linguistics, and you mentioned that you can get a 
breakdown of the needs of the FBI in this area--linguistics, 
languages.
    And I do not think I formally asked for the breakdown, but 
could you give us some information on which languages you may 
have shortfalls in?
    Mr. Mueller. Well, we still have a shortfall----
    Mr. Scott. And if you don't have it with you----
    Mr. Mueller [continuing]. In terms of Middle Eastern 
languages and Asian languages. I would say in those two areas--
--
    Mr. Scott. I serve on the Education and Labor Committee, so 
if we could get a breakdown of that, and also the diversity 
numbers for all of your employees--I would appreciate it if you 
could provide that for us.
    Mr. Mueller. Happy to do that. Happy to do that.
    Mr. Scott. Okay. What is being done with the allegations of 
sexual assault committed by persons working for contractors in 
Iraq. Are allegations of sexual assault by persons working as 
contractors in Iraq being investigated and, if appropriate, 
prosecuted?
    Mr. Mueller. I know we have a number of investigations 
going with regard to activities in Iraq. Ultimately, we are 
constrained in two areas.
    The first area is by conducting investigations in an area 
where you can't assure the safety of our persons, you can't go 
out and interview witnesses as you would on the streets of the 
United States----
    Mr. Scott. Well, let me just ask a shorter question. Are we 
doing the best we can to investigate and, if appropriate, 
prosecute those allegations?
    Mr. Mueller. Yes.
    Mr. Scott. Okay. In the area of torture--I know these 
questions may require--you may not be able to answer in open 
session, and if that is the case, that is just the case.
    Have you authorized torture by any FBI agents?
    Mr. Mueller. Can I or have I was the question?
    Mr. Scott. Have you?
    Mr. Mueller. No. It has been our policy--it has been the 
protocol of the FBI traditionally not to use coercion in 
interrogating individuals or questioning individuals, and we 
have adhered to that protocol.
    Mr. Scott. Okay. Now, apparently your agents have been 
trained appropriately along those lines, but to your knowledge, 
have FBI agents warned other Administration employees that 
those employees may be breaking the law by torturing people?
    Mr. Mueller. There have, over the years, been occasions 
where our employees have informed employees of other agencies 
that they believed their conduct was not appropriate.
    Mr. Scott. Have any FBI arrests of U.S. citizens been made 
for torturing people?
    Mr. Mueller. I would have to get back to you. I do believe 
that there have been investigations, formal investigations, of 
torture by either contractors or members of another 
organization in which we are the investigating body.
    And my belief is that in at least one case that has been 
brought back and the person successfully prosecuted here. I 
think it was in North Carolina. It may have been South 
Carolina.
    Mr. Scott. Thank you. On I.D. theft, one of the problems 
when you have these major breaches in security and subsequent 
loss of identifying information is the fact that I.D. theft 
seems to be a crime that is rarely investigated and prosecuted.
    What can we do to ensure that even run-of-the-mill I.D. 
thieves will be pursued?
    Mr. Mueller. Well, we pursue the larger breaches. The 
ability of hackers to steal information has grown exponentially 
over the last several years.
    The Department of Justice has a task force concept in which 
we participate in which most, if not all, of the U.S. attorneys 
have come together with State and local law enforcement as well 
as ourselves participating to address identity theft.
    But it is a substantial problem, a huge problem, and it 
takes tremendous resources--it would take tremendous resources 
to address every one of them. We have picked those that are the 
large intrusions, where there are substantial numbers and names 
that are stolen, and pursued those. That we do.
    Mr. Scott. If you could get us some estimates of resources 
that would be needed to pursue even more cases, we would 
appreciate it.
    Public reports reveal that the FBI had some phones cut off 
because of failure to pay phone bills. Is that true? And if so, 
what happened?
    Mr. Mueller. We did not have a financial system that 
assured throughout our 56 field offices, 400 resident agencies, 
that the phone bills were paid on time. There were five 
instances going back to 2002 in which apparently--where we had 
an interception. It was for a period of time disrupted until 
the bill had been paid.
    We have focused on two. I think they were in 2002. 
Absolutely no harm came to the investigations, so that is as a 
result of the I.G. report that we--which identified five 
instances in which that may have happened.
    Mr. Scott. Mr. Chairman, I know my time has expired. I 
would like to pose another question that I could get an answer 
in writing, since my time has expired, if that would be 
appropriate.
    And the question is what is the FBI doing to combat human 
trafficking? You mentioned that in your opening statement--
especially whether or not you are using our new legislation, 
which removed the necessity to prove force, fraud and coercion 
in the cases.
    I know my time has expired. If you could get that 
information to us, we would appreciate it.
    Mr. Mueller. We will do it, sir.
    Mr. Scott. Thank you.
    Mr. Conyers. The Chairman of the Judiciary Committee 
emeritus, Jim Sensenbrenner?
    Mr. Sensenbrenner. Thank you very much, Mr. Current 
Chairman.
    During my 6 years as Chairman, Mr. Director, the FBI 
continuously frustrated the Committee's attempt to get to the 
bottom of the fiasco of the Virtual Case File.
    How much money was wasted in that before you gave up on it?
    Mr. Mueller. Well, sir, we had tried to be fully 
transparent at what happened there. I had to make the decision 
to cut that loose because it was not going to be successful, 
and I believe we provided thorough briefings throughout the 
time that you were the Chair. I certainly tried to.
    Mr. Sensenbrenner. I want to know how much money was 
wasted.
    Mr. Mueller. There was, I believe, a lot of----
    Mr. Sensenbrenner. There was a lot of briefings but no 
figure.
    Mr. Mueller. I believe that there was $197 million that was 
put into that program, of which we could recover somewhere 
under $100 million of that, so at least $97 million, probably 
more, more likely $100 million.
    Mr. Sensenbrenner. Okay. Has that money been recovered yet?
    Mr. Mueller. No.
    Mr. Sensenbrenner. Why not?
    Mr. Mueller. There are a number of intervening entities 
that were, in part, responsible for that. And the advice of 
counsel is that we would not be successful if we attempted to 
go to court and recover it.
    Mr. Sensenbrenner. Okay. Now, this goes to an endemic 
management problem. The gentleman from Virginia, Mr. Scott, 
referred to the fact that there were phones shut off because 
the phone bill wasn't paid on time.
    You know, now we hear about the fact that almost $200 
million appears to have been lost in an unsuccessful attempt at 
the Virtual Case File. You and I both know that that was not 
the first attempt to provide the best information to agents 
available.
    And we are now in the middle of implementing the Sentinel 
program, which I believe is the fourth attempt to do this. What 
is there that you can tell us that the fourth attempt is going 
to be more successful than the previous three?
    Mr. Mueller. Well, I am not familiar with the first two. I 
am very familiar with Virtual Case File, because that contract 
was entered in, I think, 2000, and it had a three-prong 
approach. It had the hardware. It also had the networks. And it 
had the software package.
    Two of those prongs were very successful, the networks and 
the hardware. But the software package was not successful. When 
we decided that we could not effectively bring online Virtual 
Case File, we decided to cut our losses and start Sentinel.
    The first phase of Sentinel was put in place June of last 
year. It was successful. It was on time, on budget. We are in 
the second phase. And my expectation is that that will be on 
time and on budget.
    We have gone to a spiral development in which we have 
pieces that are pulled together and put in place as opposed to 
going phase by phase by phase, so we are advancing the 
capabilities in the course of administering this contract.
    Mr. Sensenbrenner. Now, what management techniques have you 
learned from the fact that the Virtual Case File effort went 
off the cliff and the taxpayers got stuck with a pretty 
significant bill that you are applying to make sure that this 
doesn't happen with Sentinel?
    Mr. Mueller. There are probably three things, I would say. 
One is you need a chief intelligence officer infrastructure. 
You need an architecture. You need the persons capable of 
managing contracts such as this. You need the expertise. We had 
none of that in 2001.
    We have built a substantial chief intelligence officer 
capability and contract management capability.
    Secondly, one of the lessons I learned is that you cannot 
just turn to the experts in technology and say, ``Build 
something.''
    What you need is a combination of those who are familiar 
with the business practices to be integrated with the 
technicians to assure that what you are going to build will 
actually work and actually will move the organization ahead.
    And you have to do it in a combination of setting down firm 
requirements so that both you and the contractors know what you 
are going to build to----
    Mr. Sensenbrenner. And are those requirements in place?
    Mr. Mueller. Yes.
    Mr. Sensenbrenner. Okay.
    Mr. Mueller. Yes.
    Mr. Sensenbrenner. And how often do you personally review 
whether things are on track?
    Mr. Mueller. Every week, generally. Now, I will miss a week 
or two, but I generally meet on Sentinel with all of the 
players once a week.
    Mr. Sensenbrenner. Okay. That sounds good, and I wish you 
good luck. And I hope that we don't see you back here with a 
report like the Virtual Case File reports that we got during my 
chairmanship.
    I thank the Chairman.
    Mr. Conyers. The Chair recognizes the distinguished 
gentleman from North Carolina, Mel Watt.
    Mr. Watt. Thank you, Mr. Chairman.
    Mr. Director, would you agree that it is a violation of 
international law to render any person to a secret detention 
without a trial?
    Mr. Mueller. I would have to--I have not looked at 
international law and have not had an opportunity to apply the 
law to any particular set of facts.
    Mr. Watt. Well, I am not asking you to apply it to any set 
of facts. I am just asking you to acknowledge that the 
rendition of a person to secret detention without a trial is a 
violation of the United Nations Convention Against Torture and 
Other Cruel, Inhuman or Degrading Treatment, the Universal 
Declaration of Human Rights, the International Convention of 
Civil and Political Rights, the Geneva Convention?
    So I mean, that is not a trick question. I am just asking--
--
    Mr. Mueller. Well, I am not familiar with----
    Mr. Watt [continuing]. Do you acknowledge that that is a 
violation of international law?
    Mr. Mueller. It may well be.
    Mr. Watt. Okay. Do you acknowledge that if the captives 
were tortured that it would be a violation of Federal law, 18 
USC section 2340?
    Mr. Mueller. It may well be.
    Mr. Watt. And if you had a contractor in North Carolina, 
for example, assisting with transporting people, rendering 
people, out of the country, what would the FBI be doing about 
that if they knew about it?
    Mr. Mueller. Sir, if there were an allegation of a 
violation of the Federal law, we presumably would be 
participating in that investigation.
    Mr. Watt. Are you aware that the North Carolina Attorney 
General has referred such a matter to you about a company 
called Aero Contractors in North Carolina?
    Mr. Mueller. I am not. I would have to get back to you 
about that investigation.
    Mr. Watt. Okay. Well, what I would like to know is what you 
all know about--what the FBI's involvement with this 
investigation is. The Attorney General of North Carolina has 
notified 22 State legislators that the matter was referred to 
the FBI.
    And apparently a public prosecutor in Munich, Germany has 
issued arrest warrants for three of the company's employees, 
all of whom are residents of North Carolina. I would like to 
know what the FBI is doing in this investigation, whether it is 
doing anything, and I would be happy to have it in writing.
    In fact, it would be better to have it in writing. We maybe 
don't need to discuss it in a public venue. But I would like to 
know what is going on with that investigation, if there is an 
investigation, what the status of it is, whatever you can 
legitimately tell me without violating whatever constraints you 
have.
    Mr. Mueller. I am not personally familiar with the 
investigation. I will have to get back to you on the----
    Mr. Watt. Okay. Will you do that?
    Mr. Mueller. We will do so, yes, sir.
    Mr. Watt. Okay. Aero, A-E-R-O, Contractors, Johnston 
County, operating out of the Johnston County Airport near 
Smithfield, North Carolina.
    Mr. Mueller. Okay.
    Mr. Watt. Okay. Now, there was an allegation that--
actually, I guess you all have acknowledged that a National 
Security Letter was inappropriately issued with reference to a 
North Carolina state university student. Are you familiar with 
that?
    Mr. Mueller. Yes. It was inappropriately issued.
    Mr. Watt. Tell me what happened and why it happened.
    Mr. Mueller. What I understand is that an agent believed 
that NSL was the appropriate vehicle and served an NSL on the 
particular university. I can't remember which one it was.
    The counsel for the university indicated that it was 
inappropriately issued, and I believe a grand jury subpoena 
followed up.
    Mr. Watt. So that was one of how many cases where NSLs were 
inappropriately issued?
    Mr. Mueller. I am not certain. I would have to get back to 
you on that.
    Mr. Watt. Okay. Can you specifically get back to us on 
that, too?
    Mr. Mueller. Yes. We did a 10 percent audit of our offices. 
Ten percent of the NSLs had been issued during a period of time 
after this came to light, and I can, I believe, get you the 
facts on how many NSLs may have been inappropriately issued in 
that same category.
    Mr. Watt. How soon do you think we might expect the 
specific responses to both of those issues, the Aero----
    Mr. Mueller. Within a week.
    Mr. Watt. Okay, thank you. I appreciate it.
    Mr. Chairman, I yield back.
    Mr. Conyers. Thank you.
    The distinguished Ranking Member of the Intellectual 
Property Subcommittee, the gentleman from North Carolina, 
Howard Coble?
    Mr. Coble. Thank you, Mr. Chairman.
    Director Mueller, good to have you on the Hill today, and 
thank you for your service. I would like to talk to you, 
Director, about mortgage fraud and intellectual property.
    I feel strongly that the growing crisis in subprime 
mortgages is a result of a predatory lending epidemic which 
seems to have reached about every portion of the country.
    What is the FBI's role in investigating mortgage fraud? And 
do you all have the resources and support from other law 
enforcement agencies to effectively pursue these cases as they 
continue to emerge?
    Mr. Mueller. As I indicated in my remarks, we have more 
than 1,300 cases that have grown substantially over the last 
couple of years involving mortgages. We have 246 agents that 
are working on this.
    Approximately 160 are looking at brokers, appraisers, 
buyers, lenders and the like. We have another almost 90 that 
are looking at larger corporations, the possibility of 
misstatements and the like. We have 19 relatively large cases 
in this category.
    We are participating in 33 task forces. And last year, we 
had over 370 indictments in this class of white-collar crime.
    But it is fair to say that as these mortgage cases grow, as 
the investigations proceed, that we are going to need 
additional resources to address this problem and to bring to 
justice those who are responsible for fraudulent activities in 
the subprime mortgage arena.
    Mr. Coble. And you know, Director, lenders and borrowers, 
probably both, are at fault in this case. If a borrower knows 
that he or she is not going to be able to comply, perhaps 
backing off would be in order, and then the same thing would 
apply to the lenders, I would say. Do you concur with that?
    Mr. Mueller. Well, all the way up the chain there have 
been--may well have been misrepresentations or allowable 
misrepresentations, and we would investigate through it.
    We have to pick, quite obviously, those cases that have the 
most impact and bringing to justice those most responsible for 
the defalcations that may have occurred in this----
    Mr. Coble. Mr. Mueller, put on your intellectual property 
hat, if you will.
    Mr. Mueller. Yes, sir.
    Mr. Coble. Given the extent of I.P. criminal activity and 
the FBI's own acknowledgment that no FBI field special agents 
are assigned full-time to the investigation and pursuit of 
intellectual property rights matters, do you concur that we 
need more agents dedicated to anticounterfeiting and piracy 
investigations, A?
    And B, are our international field offices adequately 
equipped to assist in these investigations?
    Mr. Mueller. Well, worldwide, with the advance of 
technology, the ability of persons to counterfeit, whether it 
be CD-ROMs, or software packages, or music CDs, or pull it off 
the Internet, it is a burgeoning problem, and no one agency has 
the resources to address it.
    Now, we address it when they are relatively large cases. I 
am sure you are familiar with a case that we brought down 
several months ago involving a joint operation with China, 
People's Republic of China.
    But we take the largest cases, but quite obviously, with 
more resources, we could do more.
    Mr. Coble. I thank you, Mr. Mueller. Thank you for your 
service.
    Mr. Chairman, I yield back my time.
    Mr. Conyers. Thank you very much.
    The distinguished gentlelady from California, Maxine 
Waters?
    Ms. Waters. Thank you very much, Mr. Chairman.
    Thank you, Mr. Mueller, for being here today. I want to 
follow up on the questions about the mortgage subprime crisis 
that we have now.
    This has been going on for quite some time, and it appears, 
just looking, that less than 10 fair lending cases have been 
filed between 2002 and 2007. Could you tell us exactly what you 
are doing now? How many cases do you have under active 
investigation?
    Mr. Mueller. Over 1,300. In fact, the latest total, to be 
specific, is 1,337.
    Ms. Waters. Have you identified any of the institutions 
that have been involved in serious fraud?
    Mr. Mueller. We have investigations into 19 large 
institutions. We have had a number of indictments, as I said. 
Last year, we had 320 (sic) indictments or informations in this 
arena.
    Ms. Waters. You had how many indictments?
    Mr. Mueller. Three hundred and seventy.
    Ms. Waters. For mortgage fraud?
    Mr. Mueller. For mortgage fraud.
    Ms. Waters. Could we get more information on that?
    Mr. Mueller. Yes, you can. We will get that to you.
    Ms. Waters. Go ahead.
    Mr. Mueller. Well, as I said, we have over 1,300 cases. We 
have a total of almost--we have got 246 agents working on 
mortgage fraud around the country. We participate in 33 task 
forces with the Securities and Exchange Commission, with other 
Federal, State and local entities.
    The Department of Justice has a coordinating committee that 
is specifically addressed to issues relating to the subprime 
mortgage arena. And so a great deal is being done there, but I 
will say that the cases are growing each year.
    Ms. Waters. Have you made the indictments public?
    Mr. Mueller. Yes.
    Ms. Waters. Is that public information?
    Mr. Mueller. It should be, yes. There may be one or two in 
there that are still sealed, but I would venture to say that 
most of them are public. We can get you a list of them.
    Ms. Waters. Would you please get me a list of those? 
Because we have not seen--I have not seen that, and the public 
is, you know, very, very upset about the fact that we don't 
appear to be doing anything to deal with this massive fraud 
that has taken place in this country, so we need to understand 
exactly what you are doing.
    Having said that, let me go on to gang violence. You have 
all of these task forces. This gang problem has been going on 
for many, many years. I know you have only been here for so 
many years.
    But it doesn't appear that you are successful in breaking 
up gangs and stopping violence in the greater Los Angeles area. 
It is rampant.
    What are you going to do about gang violence? And how are 
you going to tackle this issue to get some real success?
    Mr. Mueller. I think if you talked to Bill Bratton and 
others in Los Angeles, you will see that we have a very close 
partnership with their office and----
    Ms. Waters. No, no, no. I don't have to talk to Mr. 
Bratton. I am witnessing the drive-by shootings and the 
killings that are going on. I know what Bratton is doing. I 
don't have to talk to him. I want to know what you are doing.
    Mr. Mueller. Well, we are working very closely with 
Bratton, Bill Bratton, and the LAPD, and the sheriff's office 
on task forces. Also, given the prevalence of the 18th Street 
Gang, the MS-13, we have entities not only in Los Angeles but 
in El Salvador.
    We have a task force down in El Salvador. We have LAPD 
officers that are working on it. We are bringing El Salvador 
officers up to Los Angeles.
    We have in the countries that--where you have MS-13 
prevalent, whether it be Guatemala, El Salvador, Honduras, 
Mexico, we are working with them to put in place fingerprint 
efforts so that we can identify gang members who come in and 
out of the country and utilize those countries outside the 
United States as safe havens.
    We are complementing Bill Bratton and the sheriff's office 
in terms of addressing MS-13, the 18th Street Gangs and the 
other gangs that you have in Los Angeles.
    Ms. Waters. Well, let me just say that I am not satisfied. 
Most of the elected officials are not satisfied. I would like 
to know if you would be willing to come to Los Angeles and be a 
part of a meeting with Chief Bratton, Chief Baca, all of the 
elected officials in the affected area, and talk about what you 
are doing now, what can be done better, and how can we depend 
on your task forces to solve some of these problems.
    We cannot continue to witness the murders, the drive-by 
shootings and the devastation to our communities any longer. 
Would you be willing to do that?
    Mr. Mueller. Yes, ma'am. Six months ago I went and stood on 
the street corner with Mayor Villaraigosa, with Bill Bratton, 
with the sheriff, and did exactly that, and I followed up with 
each of those individuals with more personnel, with 
contributions to the task force. And of course I would be 
willing to do that again.
    Ms. Waters. Well, this is something that I will follow up 
on. It is not necessarily stand on the street corners, but it 
will be to sit down with the elected officials and the police 
officers in that greater Los Angeles area so that we can talk 
about the devastation to our community and see if we cannot 
figure out, with you, how we are going to address this issue 
with a combination of law enforcement and social services.
    Mr. Mueller. Yes, ma'am.
    Ms. Waters. Thank you.
    Mr. Conyers. The Chair recognizes Steve Chabot, the 
distinguished gentleman from Ohio.
    Mr. Chabot. Thank you, Mr. Chairman.
    Director Mueller, as you know, cybercrime is a rapidly 
growing problem in this country, and you referred to it as one 
of the top priorities that you are dealing with, and it costs 
as much as $100 billion a year.
    In a speech that you gave last week, you were reported as 
saying, ``The simple truth is we do not protect cyberspace to 
the same degree we protect our physical space. We have, in 
large part, left the doors open to our business practices, our 
sensitive data and our intellectual property.''
    Your chief of the computer intrusion section went on to 
say, in the same article, ``We, the FBI, do not have the right 
amount of resources or training in place.''
    What additional resources does the FBI need to close those 
doors that you mentioned remain, unfortunately, too wide open?
    Mr. Mueller. Well, part of it is not--I would say before I 
get to FBI resources, part of it is the open doors are by 
reason of the Internet. One of the items I indicated in that 
speech is that we don't look at the Internet in the same way we 
look at our physical security, where we have a door we can 
shut.
    The fact of the matter is that people are utilizing the 
Internet, and with inadequate security a person could lodge on 
your machine an entity that can--to take down the strokes and 
push it out, and push the information out. And people don't 
think of that in the same way.
    Part of it is giving adequate security to the nets, whether 
it be .gov, .net and the like.
    The other aspect of it--in terms of what we are doing in 
addressing cybersecurity--we have, and started last year, a 
National Cyber Investigative Joint Task Force, which includes 
persons from the FBI and other Federal players--DOD, NSA and 
the like.
    And that we have stood up along with other entities to 
address--whether it be individual hackers, government hackers, 
those who want to utilize the Internet to disrupt facilities 
and the like.
    We have put in--back to your last question in terms of 
resources. In our 2009 request, we are requesting an additional 
211 positions and $39 million. I testified to that before the 
Appropriations Committee, I guess Senate and House 
Appropriations Committee, in the last several weeks.
    So that will enhance our capabilities if we were able to 
get those 211 positions and that $39 million.
    Mr. Chabot. Thank you. Also, Director Mueller--and my 
colleague Mr. Coble referred to this issue already, but I am 
going to come at it a little differently--and that is relative 
to the subprime mortgage crisis and the predatory lending 
aspects of that.
    The State that I happen to represent, Ohio, ranks sixth in 
the number of homes that have been the subject of foreclosure, 
with only--well, with one in every 58 homes being foreclosed 
upon.
    The city of Cincinnati that I represent witnessed an 
increase in the number of foreclosures in 2007 placing it among 
the top 30 cities in the Nation with a foreclosure problem.
    And a primary reason for the foreclosure fallout, as Mr. 
Coble mentioned, is predatory and lending practices. There are 
other things as well, but that has certainly been a part of it.
    And many of those things were occurring up until late 2006. 
Could you describe what assistance with State and local law 
enforcement investigations that the FBI is involved in?
    You don't have to go into specifics, obviously, for obvious 
reasons, but how do you cooperate with the local entities when 
it comes to these investigations?
    Mr. Mueller. Well, to the extent that either the State or 
the local entities or local jurisdictions have an entity that 
is addressing this, we try to work in task forces.
    We have white-collar crime squads. This is a substantial 
element of most of our white-collar crime squads around the 
country at this point. And they reach out to the insurance or 
the property departments of either the State or the locality to 
both gather information and conduct joint investigations.
    To the extent that there is expertise, accounting 
expertise, financial, analytical expertise, in these entities, 
again, we will work together in task forces.
    As I say, we have 33 formalistic or formalized working 
groups or task forces around the country, and my expectation is 
those will expand as we find more of these issues.
    I think we had something like several thousand suspicious 
activity reports from banks in the last several years, and that 
is going up to tens of thousands of suspicious activity reports 
reported by banks of activities that perhaps should be 
investigated.
    So this problem is growing bigger, not smaller, and as it 
grows bigger we are going to have to enlist the resources of 
State and local law enforcement if we are to jointly be 
successful.
    Mr. Chabot. Thank you very much.
    Mr. Conyers. The Chair of the Immigration Subcommittee, Zoe 
Lofgren?
    Ms. Lofgren. Thank you, Mr. Chairman.
    I want to talk a little bit about the interface between the 
FBI and the Department of Homeland Security as it relates to 
the FBI's role in name checks.
    When you appeared before this Committee last fall, I asked 
you where we were on that, and you indicated, according to the 
transcript, that we were bringing the Sentinel system online.
    However, subsequent to that, we have had a hearing in the 
Immigration Subcommittee with the Department of Homeland 
Security on this issue, and they are reporting that although in 
a 90-day period for permanent residence applications, if they 
don't hear from the FBI, they simply proceed, they are not 
doing that when it comes to naturalizations.
    I don't quarrel with that judgment, but there are still 
many cases where apparently the name check function takes many, 
many months--I mean, even years. And I am wondering where we 
are on that.
    I mean, we actually had one of the Members--he is not here 
today--but Howard Berman explained that one of his constituents 
popped up on a name check because he had gotten a security 
clearance, and somehow they could never get--I mean, he was 
good enough to get a security clearance, but they could never 
clear it through the FBI.
    Where are you on that whole venture?
    Mr. Mueller. Well, the problem in the backlog that we had 
is attributable to--it goes back to 2002 when, in the wake of 
September 11, USCIS resubmitted 2.7 million names which got us 
behind the eight ball.
    Nonetheless, in the past, they have completed 70 percent of 
them within 30 days, but that left the other 40 percent that 
was taking substantially longer.
    We have recognized this. We have taken a number of steps. 
We have raised the fees. We have revised the criteria to 
eliminate certain categories of records that have to be 
researched. We have prioritized the workload. We have built a 
central records complex. And most importantly, we have hired 
over 200 contractors to work along with 40 FBI employees.
    As a result of that, our expectation is by July of this 
year we will have eliminated the backlog beyond 2 years. And by 
November of this year, we will have eliminated the backlog 
beyond 1 year.
    And by June of next year, 98 percent of the record checks 
will be done within 30 days.
    Ms. Lofgren. Well, if I may, most of the name checks are 
done instantaneously because of----
    Mr. Mueller. Yes.
    Ms. Lofgren [continuing]. The computer, so that is nothing 
new. I mean, right now, we have got--according to the 
information I have received from DHS, 46,000 cases are pending 
for more than 2 years.
    Mr. Mueller. It may be. I am not certain. I am not certain 
of those statistics, but it may be.
    Ms. Lofgren. So you think by June the 2 years will be 
cleared out?
    Mr. Mueller. Yes.
    Ms. Lofgren. And we had 130,000 that had been pending for 
more than 6 months. Will those be cleared out by June as well?
    Mr. Mueller. Those who have been pending for more than 1 
year will have been cleared out by November of this year.
    Ms. Lofgren. Let me ask you, in terms of your computer 
efforts--I know Mr. Sensenbrenner also explored this. But it 
seems to me that until we move into this century, we are really 
never going to get ahead of this whole game--not only the 
computer system, but digitizing your existing records.
    Can you tell us where you are in implementation on that, on 
Sentinel?
    Mr. Mueller. Yes. Let me just explain for--a records 
check--in most cases, you can come back and--and you get a 
records request from customs or State or what have you, and a 
check--and a computer check will show you--it shows up in one 
file or no files at all, and you can get it back.
    What happened back in 2002--it was determined that whenever 
a name shows up in a file, you have to go find that file. Our 
files, paper files, for years and years and years, are resident 
in the various 56 field offices around the country.
    And if your name pops up as a witness, or somebody who was 
called to a grand jury, or somebody----
    Ms. Lofgren. No, I understand that. When are we going to 
digitize those records?
    Mr. Mueller. We cannot. It is inefficient to go ahead and 
digitize all of those. Whenever we have a record check that 
requires us to pull out a file, we are digitizing it and 
putting it into the computer database.
    Ms. Lofgren. So you are just doing it as you go along?
    Mr. Mueller. Well, no, we have got, I think, records from 
10 years forward. We are doing it in particular offices. We are 
doing the backlog. I would have to get you the exact records 
retention digitization----
    Ms. Lofgren. Well, I would like a report on that, Mr. 
Director, because obviously digitizing a 30-year-old record 
doesn't have the same priority or urgency, but it seems to me 
if Google can digitize, you know, Stanford University's library 
in a few months, the FBI should be able to digitize its current 
records in an equivalent time if it were a priority.
    Mr. Mueller. We have prioritized it. It is really a 
function of personnel and capability. And for the last 5 years, 
we have prioritized and gone throughout our country and 
digitized as many records as we could, given the personnel.
    And what will be tremendously important is the records 
retention facility that we are currently completing.
    Ms. Lofgren. Well, it seems to me--and I know my time has 
expired, Mr. Chairman--this is a force multiplier. I mean, if 
you digitize these records, you are going to actually enhance 
the ability of your agents to perform----
    Mr. Mueller. Absolutely.
    Ms. Lofgren [continuing]. And therefore it is worth an 
investment to enhance the capability of your entire workforce 
to be more effective. And so I would like--I don't know if you 
have done a cost-benefit analysis, but it seems to me clear 
that if you move into the modern age, your agents are going to 
be optimized in terms of their performance.
    Mr. Mueller. I think that is right, and I will give you an 
example of prioritization. We have digitized every 
counterterrorism, every terrorism file, every terrorism record.
    We do a lot of civil work, though, and there are--civil 
files that are, you know, very big, as you would understand, 
that go back for a number of years that are on sort of the back 
end of when it will get digitized.
    So we have prioritized. We have put emphasis on it 
particularly in those areas where we need to have access to 
those records digitally immediately.
    Ms. Lofgren. Mr. Chairman, I know my time has expired, but 
I would hope that we could get a full report on where we are on 
the computer system and on digitizing these records, what 
remains to be done, and, if it is not a priority, why. You 
know, I would just like to know more than I currently do.
    Mr. Mueller. Happy to do that.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Mr. Conyers. Thank you.
    The able gentleman from California, Mr. Dan Lungren?
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Director Mueller, thank you for being here and your 
service. Let me go back to the National Security Letters for a 
moment, if I might.
    Believe it or not, at one of my last town hall meetings, I 
had people who were concerned about the Federal Government 
spying on them, and they mentioned the Patriot Act, and I had 
no problem defending that and defending our efforts in the area 
of FISA.
    When they start talking about National Security Letters, I 
had to admit to them that we had some problems, the FBI had 
some problems there, that there were, as a result of the 
Inspector General's report, instances of the failure of the FBI 
to act properly, to have its supervisors understand what they 
were supposed to do, have the agents understand what they were 
supposed to do.
    And so subsequent to your last appearance before us, we 
have had the I.G. report that covered the year 2006, as 
required by legislation passed by this body and started by this 
Committee. That latest report showed that the mismanagement of 
the National Security Letters continued into 2006.
    You have talked about the various things you have done to 
try and change this. The I.G. report said that there was a lack 
of understanding the NSL legal requirements in the field. How 
have you specifically addressed that? And have you made any 
training mandatory for all employees who are involved with 
NSLs?
    Mr. Mueller. Let me start by saying yes, the latest I.G. 
report covered a period up to 2006 because it was not included 
in the previous report. It was terminated at some point in 
time. So it reflects that point in time before we put into 
place these new practices.
    Once the new practices were put into place, and we changed 
the procedures--as I indicated, our chief division counsel has 
to review every NSL. We provided training across the board. Let 
me make certain--let me just check on one thing.
    We have instituted mandatory training--I wanted to make 
certain that it was mandatory; it was mandatory--in the 
meantime for anybody who handles National Security Letters.
    Mr. Lungren. The reason this is so important is that I 
believe the National Security Letters play an indispensable 
part in the area of protecting us against terrorism.
    At the same time, we have legislation introduced by a 
distinguished Member of this panel that I believe would make it 
very difficult, if not impossible, for you to use in terrorist 
cases in a timely fashion--that is why it is so important that 
we are able to give a statement of confidence to the American 
people that the FBI has reformed itself and that we will carry 
this out.
    And one of the questions I have is accountability. If these 
mistakes have been made in the past, has anybody been held 
accountable, number one?
    And number two, the I.G. report says that your Office of 
Integrity and Compliance, which you referred to earlier in your 
answer, needs more staff to carry out its oversight role.
    Do you agree that more oversight staff may be needed? And 
do you have the right, again, computer systems to improve the 
way you issue and track NSLs so that you don't have to come up 
here next year--or your successor, if you decide to return to 
the private sector where you don't have to answer to us, has to 
answer these same questions?
    Mr. Mueller. Well, let me start on the computer systems. 
Yes, we have the computer software package that is requisite 
for issuance of a National Security Letter. That will go a long 
ways to shaping and ensuring that the particular protocols are 
followed in the issuance of a National Security Letter.
    I am comfortable and confident that what we have put into 
place will address this issue. I agree with you that it is 
tremendously important that we maintain the capability of 
issuing National Security Letters with the current standard, 
because I will point out at the outset it does not request 
content.
    It does not get content. It gets information relating to 
records, most often toll records----
    Mr. Lungren. Which allows you time to get the probable 
cause so that you can go on to get content if appropriate, is 
that correct?
    Mr. Mueller. Absolutely essential to provide the foundation 
for getting probable cause to get content down the road. And 
absent that, we would be severely hampered.
    I do have a disagreement--I think it is really a minor 
disagreement--with the Inspector General. We have put into 
place the compliance office. My expectation is that it will 
grow. But I believe that the people I put in charge and the 
people that are currently working in that office are sufficient 
to the task right now.
    And as we look at different areas of vulnerability, it will 
shape the growth of the office. He believes we should have made 
a more substantial initial investment in personnel in the 
office. I believe we can grow to where he expects us to be.
    Mr. Lungren. Would you give up NSLs for broader 
administrative subpoena authority? Would that be a tradeoff 
that would be better for the FBI?
    Mr. Mueller. I would have to consider that, depending on 
what that administrative authority would be. There would be 
some substantial benefit in the sense that it would simplify 
the process. The NSL capability come through four different 
statutes.
    If there were one statute that would focus on it and be 
fairly clear in terms of the standards, then it might be a 
benefit.
    What I would not want to have tampered with, however, is 
the standard for issuance of the NSL, which is akin to the 
standard for the issuance of a grand jury subpoena in a 
criminal matter.
    Mr. Lungren. Thank you very much.
    Thank you.
    Mr. Conyers. The able gentleman from Florida, Robert 
Wexler?
    Mr. Wexler. Thank you, Mr. Chairman.
    Mr. Director, in January of 2006, the New York Times 
reported that the NSA warrantless wiretapping program had 
produced thousands of leads each month that the FBI had to 
track down but that no al-Qaida networks were discovered.
    During a July 17, 2007, briefing, FBI Deputy Director John 
Pistole indicated that the FBI was not aware of any al-Qaida 
sleeper cells operating in the United States.
    In August of 2007, Congress passed the Protect America Act 
giving the intelligence community greater access to electronic 
communications coming into and out of the United States.
    I have two questions in this regard. Has the FBI found any 
sleeper cells yet, one? Two, has the NSA's warrantless 
wiretapping programs, either before the Protect America Act or 
after, led to the prosecution and conviction of any terrorist 
in the United States?
    Mr. Mueller. Well, as to your first question as to whether 
we have found affiliates or, as you would call them, cells of 
al-Qaida in the United States, yes, we have.
    Again, I cannot get into it in public session, but I would 
say yes, we have.
    With regard to the relationship of a particular case or 
individual to the terrorist surveillance program, again, that 
is something that would have to be covered in a closed session.
    Mr. Wexler. All right.
    Mr. Director, an L.A. Times article from October 2007 
quotes one senior Federal enforcement official as saying, ``The 
CIA determined they were going to torture people and we made 
the decision not to be involved.''
    The article goes on to say that some FBI officials went to 
you and that you, ``pulled many of the agent back from playing 
even a supporting role in the investigations to avoid exposing 
them to legal jeopardy.''
    My question, Mr. Director--I congratulate you for pulling 
the FBI agents back. But why did you not take more substantial 
steps to stop the interrogation techniques that your own FBI 
agents were telling you were illegal?
    Why did you not initiate criminal investigations when your 
agents told you the CIA and the Department of Defense were 
engaging in illegal interrogation techniques?
    And rather than just simply pulling your agents out of 
these interrogations, shouldn't you have directed them to 
prevent any illegal interrogations from taking place?
    Mr. Mueller. I can go so far, sir, as to tell you that our 
protocol in the FBI is not to have been--not to use coercion in 
any of our interrogations or our questioning, and we have 
abided by our protocol.
    Mr. Wexler. I appreciate that. What does the protocol say 
when the FBI knows that the CIA is engaging or the Department 
of Defense is engaging in an illegal technique? What does the 
protocol say in that circumstance?
    Mr. Mueller. We would bring it up to appropriate 
authorities and determine whether the techniques were legal or 
illegal.
    Mr. Wexler. Did you bring it up to appropriate authorities?
    Mr. Mueller. All I can tell you is that we followed our own 
protocols.
    Mr. Wexler. So you can't tell us whether you brought--when 
your own FBI agents came to you and said the CIA is doing 
something illegal, which caused you to say, ``Don't you get 
involved,'' you can't tell us whether you then went to whatever 
authorities----
    Mr. Mueller. I will tell you that we followed our own 
protocols.
    Mr. Wexler. And what was the result?
    Mr. Mueller. We followed our own protocols. We followed our 
protocols. We did not use coercion. We did not participate in 
any instance where coercion was used, to my knowledge.
    Mr. Wexler. Did the CIA use techniques that were illegal?
    Mr. Mueller. I can't comment on what has been done by 
another agency and under what authorities the other agency may 
have taken actions.
    Mr. Wexler. Why can't you comment on the actions of another 
agency?
    Mr. Mueller. I leave that up to the other agency to answer 
questions with regard to the actions taken by that agency and 
the legal authorities that may apply to them.
    Mr. Wexler. Are you the chief legal law enforcement agency 
in the United States?
    Mr. Mueller. I am head of the--I am the director of the 
FBI.
    Mr. Wexler. And you do not have authority with respect to 
any other governmental agency in the United States? Is that 
what you are saying?
    Mr. Mueller. When the authority is given to me to 
investigate, yes, we do.
    Mr. Wexler. Did somebody take away that authority with 
respect to the CIA?
    Mr. Mueller. Nobody has taken away the authority. I can 
tell you what our protocol was and how we followed that 
protocol.
    Mr. Wexler. Did anybody take away the authority with 
respect to the Department of Defense?
    Mr. Mueller. I am not certain what you mean.
    Mr. Wexler. Your authority to investigate an illegal 
torture----
    Mr. Mueller. There has to be a legal basis for us to 
investigate, and generally that legal basis is given to us by 
the Department of Justice. Any interpretations of law is given 
to us by the Department of Justice, generally the OLC.
    Mr. Wexler. But apparently your own agents made a 
determination that the actions by the CIA and the Department of 
Defense were illegal, so much so that you authorized--ordered 
your agents not to participate. But that is it.
    Mr. Mueller. I have told you what our protocol was. And I 
have indicated that we have adhered to our protocol throughout.
    Mr. Wexler. My time is up. Thank you very much, Mr. 
Director.
    Mr. Conyers. Thank you.
    The Chair recognizes the distinguished gentleman from 
Florida, Ric Keller.
    Mr. Keller. Thank you, Mr. Chairman.
    And, Director Mueller, I want to limit my questions to two 
subject areas--the FBI's efforts to capture online predators 
and also results from the safe streets task force to go after 
violent crime.
    The bottom line in my area of Orlando, Florida is that the 
results of the FBI's task force in going after online child 
predators have been spectacular. The results from the other 
task force dealing with violent crime have been less than 
spectacular. And I just want to walk through both.
    First, with respect to online child predators, one out of 
seven children in this country are sexually solicited online. 
My home state of Florida ranks fourth in the volume of 
solicitations and child pornography.
    It is so bad that an FBI agent logged on in central Florida 
into a chat room as a 13-year-old girl and, within 1 minute, he 
received 15 sexual solicitations. And within 5 minutes, a man 
turned a video camera on himself and performed an explicit 
sexual act that I can't describe in public.
    Fortunately, we have a local agent, FBI agent, named Nick 
Savage, who heads up the Innocent Images task force, and he has 
really been wonderful in addressing this.
    I am so concerned I have had five town hall meetings across 
my district to let parents know some of the tips they can do to 
protect their children against online child predators, and he 
has been right there with me to educate them.
    The convictions of his task force are up 25 percent, and he 
and other FBI agents work very well with our local and State 
authorities.
    In response to a question from Lamar Smith, you said that 
if there is one thing we could do with respect to helping you 
go after cybercrime and child pornographers, it is to work with 
the ISPs on access to records. That is correct?
    Mr. Mueller. Yes.
    Mr. Keller. Is the challenge them not cooperating or them 
not keeping their records long enough?
    Mr. Mueller. It is a question of having a standard against 
which you retain the records. The European Union has a standard 
now for ISPs that generally can go up to 2 years. And some of 
the concerns are the storage. Some of the concerns are 
developing the software that would allow you to keep the 
requisite records.
    But from the perspective of an investigator, having that 
backlog of records would be tremendously important if somebody 
comes up on your screen now and you want to know and make the 
case as to the past activity of that individual.
    If those records are only kept 15 days or 30 days, you may 
lose the information you need to be able to bring the person to 
justice.
    Mr. Keller. Are you suggesting a 2-year guideline 
comparable to other countries?
    Mr. Mueller. I believe that would be helpful, yes.
    Mr. Keller. Okay.
    Next, let me turn to the issue of the Safe Streets task 
force. Orlando's murder rate went up 123 percent in 2006, the 
third largest increase in the country.
    I then went in early 2007 to meet with Attorney General 
Gonzales and said, ``We need help. I know crime is mostly a 
local problem, but we need help from Federal crime-fighting 
teams. We need technology. We need more cops.''
    And he responded. On June 1st of 2007, he announced that 
there would be a violent crime impact team sent down from ATF 
as well as a new Safe Streets team to tackle violent crime and 
gang violence in Orlando.
    ATF then promptly surged an additional five agents. They 
worked very closely with local law enforcement and have got the 
worst of the worst off the streets.
    The FBI folks, I learned from local law enforcement, didn't 
add any new agents whatsoever. And I ride around with the 
police at night, and so I know that to be true.
    I then went and met with the local head of the FBI named 
Chris Davis in the Orlando office. I couldn't be more impressed 
with him. I am super respectful of him. I hope he gets 
promoted. But he confirmed to me that there is no new agents.
    And it is my view, at minimum, that the FBI should have 
sent in at least five new agents for at least a surge of 90 
days like the ATF did. And I just want to ask you why no new 
agents to the city that has the third biggest increase in 
violent crime.
    If you have got 180 task forces out there, surely the 
number three worst problem should get some more agents. And 
what, if anything, can we do to get you to send more folks to 
an area like Orlando?
    Mr. Mueller. Well, the first answer is I am not certain 
what the circumstances were that we did not participate and at 
least put agents on for a surge, and I would have to talk to 
the special agent in charge down there to see what the 
circumstances are.
    And the second answer is resources. Resources. And we have 
a number of programs. Mortgage fraud is burgeoning now, and it 
is, to a certain extent, a zero-sum game. I think in the 2009 
budget we have a request in for additional resources on the 
violent crime side.
    But the fact of the matter is with our national security 
responsibilities, I have had to move agents from the criminal 
side of the house to the national security side of the house, 
almost 2,000 agents since 2001. So it is really a function of 
additional resources generally.
    Mr. Keller. Well, thank you.
    Mr. Chairman, if you would indulge me just as a follow up, 
I know you can't know the details of every particular special 
agent's task force and how many folks they have.
    But I would just ask respectfully that you would chat with 
a special agent there, because your folks are well respected, 
and when you put a Federal charge on the worst of the worst, we 
never see them again and would love your help if you would 
follow up with that.
    Mr. Mueller. Thank you, sir.
    Mr. Conyers. Thank you.
    The able gentleman from Tennessee, Steve Cohen?
    Mr. Cohen. Thank you, Mr. Chairman.
    Director Mueller, Mr. Wexler was asking you about some 
illegal tactics that the FBI did not engage in, and you said 
you followed the protocol. Does the protocol include informing 
other agencies that you believe what they were doing was 
illegal?
    Mr. Mueller. Excuse me just a second.
    Mr. Cohen. Can this time not be counted against me?
    Mr. Mueller. I am sorry, go ahead. I am sorry. What was the 
question again, sir?
    Mr. Cohen. Stop the clock.
    You say you wouldn't engage in torture, but when you find 
out that other agencies may be engaged in torture that you 
believe is illegal, does your protocol include informing those 
agencies that you believe their actions are illegal?
    Mr. Mueller. Yes.
    Mr. Cohen. Who did you inform in that situation?
    Mr. Mueller. At points in time, we had reached out to DOD 
and DOJ in terms of activity that we were concerned might not 
be appropriate--let me put it that way.
    Mr. Cohen. And you informed both the Department of Defense 
and the Department of Justice?
    Mr. Mueller. During the period of time in question, after 
2000, say, to 2002, there have been times when we have done 
that, yes.
    Mr. Cohen. And can you supply us with copies of those 
letters or memoranda?
    Mr. Mueller. I would have to get back to you on that.
    Mr. Cohen. We would appreciate it if you would. I would 
like to request you to do that.
    And what was their response to you?
    Mr. Mueller. Again, I am not certain to what extent this is 
classified. I would have to get back to you on that in any 
event.
    Mr. Cohen. Well, if you could give us a response to this as 
well, I would like to know which agencies did not listen to 
you, Director, and engaged in torture. I think that would be 
very important for this Committee to know, if there are 
departments--of defense or justice or any--or CIA that don't 
listen to the director of the FBI.
    Mr. Mueller. Well, another factor that I think is important 
to recognize in this--what constitutes appropriate behavior 
under circumstances for other agencies is subject to legal 
opinions from the Department of Justice.
    Mr. Cohen. Yes, sir, I understand that. I agree with you.
    Mr. Mueller. And so we would over a period of time say, 
``Look, we have noticed behavior that may be questionable,'' 
and report it to the agency. That particular agency may be 
governed by legal opinions that are not applicable to us.
    Mr. Cohen. Yes, sir. But I would listen to your opinion 
first.
    You have a great agent in Memphis, My Harrison, and she has 
done a phenomenal job. She has convicted or brought 
prosecutions and juries and judges found guilty many public 
officials, many of whom were African American.
    You say 1,800 officials have been prosecuted over a period 
of time.
    Mr. Mueller. Two years.
    Mr. Cohen. Do you have statistics to show that there is not 
a racial bias?
    Mr. Mueller. Do not.
    Mr. Cohen. Do you have a racial breakdown----
    Mr. Mueller. I am not certain we keep that--I would be 
surprised if we kept any such statistic.
    Mr. Cohen. Is there any statistic that shows how many were 
Democrats and Republicans, to show there is no political bias?
    Mr. Mueller. We don't keep that. We are non-political. I 
think if you are fair and look across, you will see that 
regardless of political affiliation, you have any number from 
various parties in that 1,800 figure.
    Mr. Cohen. Agent Harrison was able, through very 
outstanding work, to have an indictment brought against a man 
in Tennessee who had killed a Shelby County codes enforcement 
officer named Mickey Wright.
    The circumstances of his death were such--and the proof--
that the Attorney General pled to a second-degree murder or 
manslaughter, 15 years, and that was not sufficient for taking 
this man's life.
    Through her diligent work, she was able to charge a hate 
crime, because he was a government official. But if he weren't 
a government official, she couldn't have gotten the U.S. 
attorney to present to the grand jury and for them to return an 
indictment of a hate crime, where there is the possibility of 
additional punishment for this man's murdering Mickey Wright.
    Are you a supporter of the hate crime legislation that went 
through that would give you more power to enforce hate crimes?
    Mr. Mueller. I would have to look at the particular 
legislation before I give an opinion as to whether we could 
support it or not.
    Mr. Cohen. It is the one that has already passed the House.
    Mr. Mueller. Pardon?
    Mr. Cohen. It is the one that has already passed the House, 
gave more power to the Federal Government to go after hate 
crimes.
    Mr. Mueller. I would have to specifically look at it before 
I could render an opinion.
    Mr. Cohen. Okay. If a person takes a corpse across State 
lines to avoid prosecution or avoid discovery of the crime, and 
the facts otherwise don't constitute a Federal crime as they 
wouldn't here, except for My Harrison's work, would it be 
helpful to the FBI to have a Federal law to make it illegal to 
transport a corpse across State lines for the purpose of 
avoiding detection of the crime?
    Mr. Mueller. I would have to look at the circumstances and 
see whether there wasn't a Federal jurisdictional----
    Mr. Cohen. Let's assume there isn't.
    Mr. Mueller [continuing]. Angle to start with, and then----
    Mr. Cohen. Well, let's assume there isn't, and a person 
took a body from, you know, New York to Giants Stadium, or they 
took it from Memphis to Arkansas. Wouldn't it be helpful?
    Mr. Mueller. Again, that is something I would have to look 
at. Off the top of my head, I would really like to think about 
it before I render an opinion on that as well.
    Mr. Cohen. Thank you for that.
    Mr. Smith. Would the gentleman from Tennessee yield 
briefly----
    Mr. Cohen. Yes, sir.
    Mr. Smith [continuing]. To the gentleman behind you? I just 
want to point out for the record that while many of us today 
have used the word ``torture''--I think most of us have used 
it--that you, Director, have never said that the FBI ever 
engaged in torture. You have used the word coercion, which is 
far different.
    And I just don't want the imputation to be allowed to stand 
that the FBI has ever engaged in torture, even though I and 
others have used the word today.
    Mr. Scott. Well, will the gentleman yield?
    Mr. Smith. It is not my time.
    Mr. Cohen. I will yield once removed.
    Mr. Scott. I thought it was clear that the FBI made it 
clear that they do not torture, although some other agencies 
may not be able to answer the question the same way.
    Mr. Mueller. What I have said throughout is we do not 
engage in coercion in any form, and my saying that meaning, 
quite obviously, do not engage in torture, but coercion in any 
form in the course of our interrogations.
    Our protocol and our policy is to generally develop rapport 
as the mechanism of obtaining the information we need in the 
course of an investigation, and I will say it has served us 
well.
    We operate in the United States. We operate within the 
court framework of the United States with the expectation that 
if we find a crime, develop the evidence, that it will then 
have to be presented in the courtroom.
    Mr. Conyers. Thank you.
    The able gentleman from Virginia, Bob Goodlatte?
    Mr. Goodlatte. Thank you, Mr. Chairman.
    And, Director, welcome. We are glad to have you with us 
today. I want to ask you about the problem we are having, and 
very serious growing problem in this country, with gangs and 
gang violence.
    We see it in virtually every corner of the country--in my 
congressional district, which is smaller cities and rural areas 
in western Virginia, the Shenandoah Valley and the Roanoke 
Valley. We see increasing numbers of gangs and increasing 
problems with local law enforcement dealing with them.
    And I would like to ask how the FBI is dedicating resources 
to fighting street gangs.
    Mr. Mueller. Well, as I have indicated in my remarks, we 
have a number of--well over 100 task forces that are spread 
throughout the United States in which we work with Federal, 
State and local counterparts to address the gang violence.
    We participate in the National Gang Intelligence Center 
here in D.C., which we lead, with a number of contributing 
agencies. We have a separate MS-13 gang task force headed here 
in Washington.
    And across the probably more than 40 States now that have 
an MS-13 problem, we have a coordination function. And we are 
working very hard in Los Angeles, in that area, which is 
basically the headquarters of a number of the gangs, MS-13 
being one of them, but Crips and Bloods and others.
    In Chicago and elsewhere in the northeast we address the 
Latin Kings.
    Mr. Goodlatte. Let me interrupt you, sir.
    Mr. Mueller. So looking at the panoply of gangs that you 
have, we have adapted structures to address those gangs both 
here in the United States as well as overseas.
    Mr. Goodlatte. Have you seen any changes in the nature of 
this threat?
    Mr. Mueller. I think the biggest change is the acquisition 
by certain gangs in certain places of automatic weapons, and 
the growth of the threats to law enforcement, particularly 
local law enforcement, by the acquisition of this heavy 
weaponry.
    I know, in talking to my counterparts around the country, 
particularly in places like Miami, this has become a 
substantial concern.
    Mr. Goodlatte. And do you need additional resources to 
fight these gangs?
    Mr. Mueller. We can always use resources, additional 
resources, and so could State and local law enforcement.
    Mr. Goodlatte. And I understand that--you may have just 
encompassed this under a different name, but I understand that 
you have an antigang coordinating committee working, and how is 
that working?
    Mr. Mueller. Well, we have the National Gang Intelligence 
Center, and that works exceptionally well, and DOJ I know has 
structures that coordinate the placement of resources, whether 
it be our resources, ATF, Marshals Service and the like in a 
coordinated fashion around the country, and that may be the 
coordinating mechanism to which you advert.
    Mr. Goodlatte. All right.
    Let me switch gears and ask you some questions about 
Internet gambling, which is also a serious problem, but we have 
made some headway in this area in recent times, thanks in part 
to work by the FBI.
    Are you still dedicated to vigorously enforcing our 
Nation's laws against illegal online gambling transactions?
    Mr. Mueller. Yes.
    Mr. Goodlatte. And do you still believe online gambling is 
used as a method for money laundering by criminal enterprises?
    Mr. Mueller. Yes.
    Mr. Goodlatte. And have you found----
    Mr. Mueller. Yes.
    Mr. Goodlatte [continuing]. Evidence to support that?
    Mr. Mueller. Yes.
    Mr. Goodlatte. And do you agree with the now, I think, 
approximately 45 State attorneys general who oppose Federal 
legislation to legalize currently illegal online gambling 
transactions?
    Mr. Mueller. I am not familiar with that legislation, so I 
really can't opine on it.
    Mr. Goodlatte. Are you familiar with the concern that a 
number of State attorneys general have with the problem of 
online gambling in general?
    Mr. Mueller. Yes.
    Mr. Goodlatte. And you share their concern about that?
    Mr. Mueller. I share a concern about online gambling and 
the uses to which it can be put, yes.
    Mr. Goodlatte. Great.
    Thank you, Mr. Chairman.
    Mr. Conyers. Thank you.
    The Chair recognizes the distinguished gentlelady from 
Texas, Sheila Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, thank you.
    Thank you, Director Mueller, for again your service. I 
wanted to pursue the line of questioning that I had raised 
early in my opening remarks and then briefly try to address 
questions that may require you and staff to come back on, 
because they are specific to my State and my congressional 
district.
    I would like to hear from you your assessment of the FBI's 
work in hate crimes. I know that there are statistics that the 
DOJ likes to offer regarding the increasing amount of hate 
crimes, but I am very interested in whether or not there is a 
targeted unit that focuses on those crimes.
    I think expertise is important, because there is a question 
of knowing when to move in and to make the appropriate 
intervention that may not always result in an arrest.
    And I bring to our attention again the facts of Jena 6 that 
you know generated an enormous outpouring, response, emotion, 
and realistically so. Young men, six of them, who happened to 
be African Americans, were penalized for what has been 
interpreted as a schoolyard fight for some and others a brutal 
attack.
    We know that the gentleman who was attacked--we don't 
condone those actions--but was released the same day and was 
functioning.
    We also know that White students at a high school were 
alleged to have hung a noose or provoked students at that 
school.
    And we know that parents came to the school, African 
American parents, and asked for intervention, which I think 
would have been the stopgap for what ultimately generated into 
that issue.
    We know that a gun was pulled on Black students at a store. 
As we said, we knew that hanging nooses came about. And 
frankly, I don't know anything that a hanging noose represents 
other than a hateful act.
    That is the first question. So I would like to know the 
energy behind prosecuting hate crimes or the FBI intervening 
either in local law enforcement to be able to be a stopgap, 
even though I know that your job is prevention. But when I look 
at the civil rights issues, those are civil rights.
    The other one is we have two issues in the State of Texas 
where allegations have been proven where there has been abuse 
in a juvenile system detention facility.
    We have found in the Harris County Jail 120 deaths over 10 
years, the denial of medicine and legal services, and religious 
leaders in the Harris County Jail have been denied entrance not 
to proselytize but to interact with their members and 
constituents.
    So let me just stop for a moment for those two questions. 
And I know that my time is short, and I do have one or two 
others. Thank you, Mr. Director.
    Mr. Mueller. Well, as to the first incident to which you 
refer, as soon as we were notified of that incident we had 
agents who responded along with the locals and monitored the 
situation.
    We had discussions, I know, with you as well as with the 
Department of Justice to determine what, if any, investigation 
was warranted on our part, and that is typical of the process 
that we follow.
    Whenever there is an allegation of a hate crime or a civil 
rights abuse, we immediately do what is called a preliminary 
investigation to determine whether further investigation is 
necessary.
    In the civil rights arena, that is coordinated with the 
Department of Justice and a determination is made what, if any, 
additional investigation is warranted by the Department of 
Justice or the FBI, and we follow that procedure.
    Ms. Jackson Lee. And, Director, my time is short. Can I get 
a chronology in writing so I won't have to pursue it any 
further here on just what happened and how that intervention--
--
    Mr. Mueller. I believe that is possible. We have to get 
back to you.
    Ms. Jackson Lee. I appreciate it.
    Mr. Mueller. In terms of Harris County and what happened--
--
    Ms. Jackson Lee. Yes.
    Mr. Mueller [continuing]. With the jails or juvenile 
facilities, again, if there are allegations, we write up the 
allegations. We look at the report. And we coordinate with the 
Department of Justice to determine what additional 
investigation we should conduct to determine whether or not 
there are Federal charges that should be brought.
    Ms. Jackson Lee. Well, I am going to engage your office. I 
know that it is a DOJ partnership, but let me say that I think 
more work needs to be done.
    I want to quickly move to--you, I think, have come in in 
2001, I believe, to this position. And I was wondering whether 
you were aware, quickly, of your deputy general counsel at the 
FBI as relates to the Guantanamo Bay, who brought to the 
attention the questions of abusive interrogation and whether or 
not anything was done when your own person on the ground 
offered that point.
    Mr. Conyers. The gentlelady's time has expired.
    Ms. Jackson Lee. And I will look forward to getting that 
question answered in writing.
    Mr. Conyers. Well, you can answer the--you can finish the 
question and receive an answer.
    Mr. Mueller [continuing]. We received allegations from our 
people, if we received allegations from our people, it was 
then, over a period of time, passed on to the authorities 
responsible for the investigation of such allegations, which at 
Guantanamo would have been DOD.
    Mr. Conyers. Thank you very much.
    The able gentleman from California, Darrell Issa?
    Mr. Issa. Thank you, Chairman.
    Director, there isn't enough time in 5 minutes to open and 
close the subject of the cyber initiative, but this Committee 
is going to, in my opinion, be the lead Committee on the actual 
effectiveness of that initiative.
    As we both know, it is compartmented, highly classified, 
but I would like to concentrate just on what laws or changes 
that you would need from this Committee if you were to do the 
following--and I will set out a scenario.
    If you go into a place and there is a crime actively being 
committed--we will say there is a bookie joint and there is 
tens of thousands of illegal transactions going on every 
minute. And you know that, and you have proof of that. You 
don't question your ability to go in and to harvest the fruit 
of all the activities in there. Is that correct?
    Mr. Mueller. Correct, you know, with a search warrant, 
quite obviously.
    Mr. Issa. With a search warrant. Today, every ISP is being 
maliciously attacked--and this goes beyond the .mils and .govs, 
but I think that is the important reason that we approach it 
today.
    Every ISP is being attacked maliciously both from in the 
United States and out of the United States by those who both 
want to invade people's privacy but, more importantly, they 
want to take control of computers. They want to hack them. They 
want to steal information.
    This is also true of the .mils and .govs. Every one of our 
congressional offices every day is under attack.
    Every portal leading out of the United States--some of them 
going in and out of the United States, but talking only about 
your jurisdiction in the United States--every portal coming 
into this country is being attacked by those who would harvest 
information, both national security secrets and just the common 
information of private companies and private individuals.
    That crime is going on every day on a single entity known 
as the Internet. What authorities do you need in order to 
monitor, looking for those illegal activities, and then act on 
those both defensively and either yourself or certainly other 
agencies offensively in order to shut down a crime in process?
    Now, I am a civil libertarian. I was with Bob Barr arguing 
some of the elements of the Patriot Act that we still don't 
agree should have been there.
    But when I set up that crime scenario, how is it that you 
are going to get the right to react when today, people would 
say that if they--if you are addressing an action from an 
American person, you don't have that right?
    How are you going to do it, and how can we help you do it 
appropriately and constitutionally?
    Mr. Mueller. I think legislation has to be developed that 
balances, on the one hand, the privacy rights of the 
individuals who are receiving the information but, on the other 
hand, given the technology, the necessity of having some 
omnibus search capability utilizing filters that would identify 
the illegal activity as it comes through and give us the 
ability to preempt that illegal activity where it comes through 
a choke point, as opposed to the point where it is diffused on 
the Internet.
    And it is a question of the legislation catching up to the 
technology, understanding these crimes are being committed 
every moment, but then identifying the ability--identifying our 
ability to focus on the particular criminal elements as it is 
coming through and preempt that criminal element, whether it be 
.mil, .gov, .com, whichever network you are talking about.
    Mr. Issa. Okay. And one follow-up question, because I--or 
two follow-up questions. I know we are not going to get it all 
resolved today.
    One, can you have somebody on your staff designated to work 
with Members of Congress on trying to craft that legislation? I 
would appreciate being able to work with that person.
    Mr. Mueller. Yes.
    Mr. Issa. And secondly--and this goes to a legal opinion 
you may or may not be able to help us with today, but I would 
like you to try to work on it--if ISPs or other private 
entities--a Lockheed Martin on one hand and my old company, 
Directed Electrons, on the other--if they consented to 
participation voluntarily in being, in fact, defended in a 
cyber initiative--and that includes ISPs who hypothetically got 
consents from every single person that signed up to operate 
under their auspices--if that consent were granted, do you 
believe the current laws either can or reasonably easily could 
be made to protect them?
    In other words, a voluntary program that would begin 
allowing Federal agencies to counterattack and to defend on 
behalf of those who waive current possible restrictions in that 
sense? And that is probably my most important question to try 
to get this Committee to think of.
    Mr. Mueller. I think that is going to require some thought, 
because an individual company can say, ``Okay, I consent to 
have somebody protect me,'' but if the filter is 
inappropriately placed, just protecting that particular 
company, you may have to be one or two or three institutions or 
ISPs off, and that is where you would have a problem.
    And whether it be--I forget which company you mentioned--
Lockheed Martin saying, ``Okay, I am willing for somebody to 
protect me,'' but the protection may be two or three companies 
off, and Lockheed Martin has no mechanism in order to affect 
the company that is two or three off, if you see what I am 
getting at.
    Mr. Issa. Thank you.
    And thank you, Mr. Chairman. Hopefully 163.33.33.0 will be 
protected if they ask to be, whoever they are.
    Mr. Conyers. As you wish, Mr. Issa.
    Mr. Issa. Mr. Chairman, I do hope that when we look at the 
cyber initiative we view ourselves as the primary Committee 
that has to clear the way for appropriate action on behalf of 
our government, all branches.
    Mr. Conyers. The Chair is now pleased to recognize the able 
gentleman from Georgia, Hank Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    Director Mueller, it is good to have you here today. Jose 
Padilla, a United States citizen, was seized in Chicago on a 
material witness warrant and moved to the Navy brig in South 
Carolina where he was held in solitary confinement, denied 
access to an attorney and subjected to a host of harsh 
interrogation techniques, including days of sleep deprivation, 
during which time the Department of Justice defended his 
detention before various courts.
    He has also alleged that he was subjected to mind-altering 
drugs. Now, the FBI did participate in the interrogation of Mr. 
Padilla, did it not?
    Mr. Mueller. Yes.
    Mr. Johnson. And you were kept informed about the nature 
and the results of the interrogation, is that correct?
    Mr. Mueller. Me personally?
    Mr. Johnson. Yes.
    Mr. Mueller. No, not specifically. I mean, I may have been, 
upon occasion, informed that he was being interrogated. I don't 
think I was informed of what information had come out of him.
    Mr. Johnson. Did you know that he was being subjected to 
days on end of sleep and sensory deprivation?
    Mr. Mueller. No, and I am not certain that I understand the 
question, but by answering the question I am not--I don't mean 
to affirm that that is exactly what happened. I am not certain 
that----
    Mr. Johnson. Well, let me restate the question. Now, you 
have testified that you were aware that the FBI participated in 
his interrogation and that while you were not directly informed 
about the nature and the results of the interrogation, that you 
may have had some discussions about it. Is that correct?
    Mr. Mueller. I know he was at a brig in South Carolina. I 
knew that he was probably being interrogated. The specifics of 
it I did not know.
    Mr. Johnson. You did not know anything about the sleep 
deprivation--you were not informed about that?
    Mr. Mueller. I did not know.
    Mr. Johnson. You were not informed of any use of mind-
altering drugs?
    Mr. Mueller. No. And again, Congressman, I am not certain 
that that is accurate. I know Mr. Padilla was charged and 
convicted in court in Florida, if I am not mistaken, and many 
of the assertions and allegations were raised in the course of 
that prosecution.
    But I do believe he was successfully prosecuted and was 
recently sentenced.
    Mr. Johnson. I am aware. Did you ever express any 
disagreement with the policies surrounding the detention and 
interrogation of Mr. Padilla?
    Mr. Mueller. No, but again, I go back to I did--the 
specifics in which you allude I was not aware of.
    Mr. Johnson. Thank you.
    In your Senate testimony, sir, you admitted that the FBI is 
no longer vigorously fighting white-collar crime and drug 
cases. For example, you mentioned that 800 agents have been 
shifted off of fighting white-collar crime and 10,000 cases are 
not being done as a result.
    And you also mentioned that 900 agents were shifted off of 
drug cases. With violent crimes on the rise, what else besides 
money do you need to pump up our internal crime-fighting 
capability?
    Mr. Mueller. Let me clarify one thing. What I said was that 
we shifted 800 agents, I believe it was, from smaller white-
collar criminal cases, and generally those are cases under a 
certain dollar amount which we could not handle.
    We quite clearly have addressed the Enrons, the Worldcoms, 
the HealthSouth--the larger white-collar criminal cases--as we 
are addressing the subprime mortgage cases, but we have to 
prioritize. We did shift 900 agents from doing narcotics cases 
over to national security.
    To backfill, we would quite obviously need the agents, 
almost 2,000 agents, to backfill those that have been moved 
over.
    But it also takes the infrastructure, the training 
facilities, the information technology, the associated 
intelligence analysts that go with building up that capacity on 
the criminal side of the house.
    Mr. Johnson. So have those potential capabilities been 
requested, those assets?
    Mr. Mueller. Over the years, we have requested additional 
resources. And in many cases, we have gotten those resources, 
but generally they have been--they have been accorded on the 
national security side of the house.
    Mr. Johnson. What performance measures does the FBI have to 
assess its progress in implementing its counterterrorism policy 
and the effects of this priority on its traditional law 
enforcement crime-fighting mission?
    Mr. Mueller. Well, in terms of--we look at a number of 
metrics when it comes to counterterrorism. The most obvious 
metric is the stopping of any terrorist attacks.
    But also, the number of individuals that are under 
investigation; the number of cells that may have been 
disrupted, although it may not be public; the number of agents 
and analysts and the caseload they have.
    Most importantly is our work with our counterparts on the 
joint terrorism task forces, how those joint terrorism task 
forces are doing and the contributions of State and local to 
those task forces as well as overseas, our relationships with 
our overseas counterparts, whether it be in Denmark, or 
Germany, or the U.K., or Spain, or places like Pakistan, Saudi 
Arabia, all of which contribute to our ability to protect the 
country from additional terrorist attacks.
    We look at the number of IIRs, intelligence information 
reports, that we disseminate on a daily, weekly, monthly basis 
to the rest of the intelligence community. Our participation in 
the National Counterterrorism Center, to the extent that we 
have analysts participating in that.
    Those are just to mention a few of the metrics that we look 
at in terms of our war against terrorism.
    Mr. Johnson. Thank you, Director Mueller.
    And my time has expired. Thank you, Mr. Chairman.
    Mr. Conyers. Thank you.
    The distinguished gentleman from Virginia, Mr. Randy 
Forbes?
    Mr. Forbes. Thank you, Mr. Chairman.
    And, Mr. Director, thank you for being here. I want to 
first compliment your good judgment going as far as back as 
your selection of a law school to attend.
    I also want to go back to September 11, 2001. I was the 
newest Member of Congress, and I still remember us gathering in 
the command headquarters in D.C., and Members of Congress 
coming in there, and you walking in. You had only been on the 
job for 1 week, as I recall, at that particular point in time.
    I remember the looks on Members of Congress' faces, many of 
them sitting on this panel today, and we were looking outside, 
and we saw smoke coming up from the Pentagon, jets flying over 
D.C., streets vacant except for people with guns for security 
there.
    And I remember us looking at you then and saying, ``Mr. 
Director, do what you have to do to keep our country safe and 
protect our citizens from terrorists.''
    And for almost 7 years, you have done an incredibly good 
job at doing that, and we just want to thank you for that. You 
only had to blink one time. You only had to miss one, and I 
couldn't say that, but we can today.
    The other thing I want to tell you is, as you can hear from 
testimony here today, no good deed goes unpunished. And based 
on the success we have had there, we seem to have turned our 
attacks inwardly.
    And one of the concerns I have today, if you listen to the 
press, if you listen to a lot of law enforcement across the 
country, if you listen to some members of the public, they have 
developed this kind of ``gotcha'' mentality toward elected 
officials, business leaders, religious leaders, where it is 
almost as if there is a view that all of them are corrupt or at 
least corruptible.
    And my questions for you today are these. First of all, 
what do you do as director to make sure all of the stuff that 
you hear, all this ``gotcha'' stuff, you know, that is going on 
doesn't permeate your agents, and so we don't have hunts to get 
the bad guys, but we have instead investigations to determine 
who the bad guys are, if they are?
    And the other question I have for you is regarding 
something that I think is far greater concern to the country, 
and that is the issue of Chinese espionage. And I know some of 
that is classified, but much of it is open source.
    How significant is that problem today? What is the extent 
of the threat? And what can we do to stop it?
    Mr. Mueller. Let me start by saying that to the extent that 
the country has been protected from terrorist attacks over the 
last 6\1/2\ years--because of the men and women in the FBI, but 
most particularly men and women who work in the--the 800,000 
State and local law enforcement officers around the country, 
many of whom--I should say, actually, many of their agencies 
work on joint terrorism task forces.
    It also is attributable to the relationships with our 
counterparts overseas.
    With regard to what you call the ``gotcha'' mentality, it 
is discouraging for the men and women of the FBI to--who every 
morning wake up with one goal in mind--that is, what do we do--
how do we do the right thing to protect the American public, 
whether it be from crime, from terrorism, from 
counterespionage, to have persons not necessarily understand 
that we are human, we do make mistakes? When we make mistakes, 
we admit to them and move on.
    But the reputation of the Bureau, whether it is in the 
United States or outside the United States, I think is very 
good. We have a 100-year track record of capability. And I do 
believe that that is acknowledged.
    Turning to the second question you had with regard to the 
espionage or efforts by the PRC to gather our secrets, most of 
what I could say could not be said in open session.
    What is public is a series of successful prosecutions 
recently in which individuals had worked with particular 
companies or, in a recent case, in a university, and there have 
been a number of cases in which the evidence has shown that 
they were stealing secrets with the expectation of that 
information going back to the PRC.
    So there is a public track record indicating--where it has 
been proven that the PRC has individuals in the United States 
who are looking to steal some of the Nation's most sensitive 
secrets.
    Mr. Forbes. Thank you, Mr. Director.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Conyers. Thank you.
    The Chair is pleased to recognize the able gentlelady from 
Wisconsin, Tammy Baldwin.
    Ms. Baldwin. Thank you, Mr. Chairman.
    And thank you, Director Mueller, for your time today. 
Hopefully I will have time to get to two distinct lines of 
questioning, both regarding issues of great interest to my 
constituents in my home State of Wisconsin.
    As you know, our Committee has spent considerable time 
looking into the termination of the nine U.S. attorneys and the 
question of politically motivated prosecutions.
    One such prosecution occurred in the State of Wisconsin, 
and I assume that you are aware that a public servant, Ms. 
Georgia Thompson, was wrongfully sent to a Federal prison 
amidst serious allegations that political considerations may 
have influenced the exercise of prosecutorial power.
    As you recall, when Ms. Thompson's conviction was 
overturned, the appeals court released her immediately upon 
ruling on the case, calling the evidence beyond thin. And the 
State of Wisconsin is taking the very unusual move of repaying 
all of her legal fees and expenses.
    Now, we know that the FBI was involved in investigating the 
Georgia Thompson case, because Special Agent Terry Sparacino 
testified during her trial that he had found--and I quote, he 
had ``found no evidence during his investigation to support the 
prosecution's contention of wrongdoing.''
    Now, did the FBI agents who were involved in the 
investigation of this case ever consult you directly or 
indirectly via superiors to discuss their concerns about the 
investigation or the prosecution, despite what they were 
uncovering or not uncovering during their investigation?
    Mr. Mueller. I am familiar with the facts that you 
indicate, but no, I was not consulted in the----
    Ms. Baldwin. You were never involved in----
    Mr. Mueller. No.
    Ms. Baldwin. Okay. Thank you. The other line of questioning 
I want to pursue relates to some concerns that have been raised 
in my district by constituents.
    I have a very politically active district. People vote in 
high numbers, communicate with their elected officials and 
sometimes protest or demonstrate when they are unhappy with 
governmental policies--sit-ins, marchings and demonstrations.
    Recent news reports that antiwar protesters have been added 
to the watch list and have been denied entry into Canada, for 
example, have--these news reports have been read and discussed 
among folks in my constituency.
    And I am hearing concerns about how decisions are made, so 
I thought I would just ask you a series of questions about the 
terrorist screening database and the watch list.
    First of all, can you tell me anything about what the 
criteria are for the FBI nominating somebody to that list?
    Mr. Mueller. Well, there are a number of criteria. We would 
have to get that to you. But I will say that we are very 
careful not to focus on individuals who are exercising their 
first amendment rights as a protester, to in any way inhibit 
that or utilize that as a reason to open an investigation. We 
are very careful about that. We understand the sensitivity of 
that.
    Where that crosses a line in terms of damage or violence 
and the like, then we have, quite obviously, a responsibility 
to follow up. But we are very sensitive to that line.
    And in my mind, none of the criteria applicable to the 
terrorist screening center would allow a person to be put on 
that list purely for exercising their first amendment right to 
protest.
    Ms. Baldwin. If I understand the news reports, the 
individuals who were denied entry into Canada, for example, for 
being on the watch list had been convicted of misdemeanors but 
in completely nonviolent contexts--for example, sit-in and not 
leaving someplace voluntarily and so being arrested as they 
were leaving.
    Is there a way that a person can inquire whether they are 
on a list and appeal their presence on the list if they feel 
that there has been an improper placement on the list?
    Mr. Mueller. There is an office where you can make the 
request. They may or may not--they probably will not tell you 
if you are on the list, and I am not certain what response they 
give, but you can--it will be pursued.
    I might also say it may not be the terrorist watch list 
that they are on. There may be some other reason they have been 
barred from going to Canada.
    Ms. Baldwin. The news reports we heard was specifically 
that they were on the watch list. How many people are on the 
watch list?
    Mr. Mueller. That is something I can't give in open 
session.
    Ms. Baldwin. Okay.
    Mr. Mueller. It also differs, I might say, because there 
are a number of names, different records, as opposed to 
individuals. I mean, one individual can have five, 10 or 15 
different aliases and identifiers, so--but it is not something 
I can give in open session.
    Ms. Baldwin. And the watch list is shared with foreign 
governments?
    Mr. Mueller. Upon occasion, yes, pursuant to agreements.
    Ms. Baldwin. Okay. Do we know how many such agreements 
exist----
    Mr. Mueller. Yes.
    Ms. Baldwin [continuing]. In terms of----
    Mr. Mueller. That is, again, something that is not--I can't 
speak to in open session.
    Ms. Baldwin. All right. Well, we will have to pursue this 
in a time that we can exchange information more readily. Thank 
you.
    Mr. Conyers. Thank you.
    The Chair recognizes the distinguished gentleman from Iowa, 
Steve King.
    Mr. King. Thank you, esteemed Chairman. I appreciate the 
opportunity to be recognized.
    And, Director Mueller, I much appreciate your service to 
this country over these very difficult years. And I think 
history will record this as a very effective directorship that 
you have conducted here over these years.
    The first question I have is do you detect, as we approach 
an upcoming presidential election, and everything gets more and 
more politicized--and we may have noticed that actually here 
today.
    Do you detect, as the gentlelady from Wisconsin mentioned, 
politically motivated prosecutions? Do you detect any 
reluctance on the part of justice to bring indictments that 
might be construed as politically motivated as we approach this 
election?
    Mr. Mueller. No.
    Mr. King. If you did, what would you consider your duty to 
be?
    Mr. Mueller. I would raise it with the Attorney General.
    Mr. King. Thank you. I appreciate that very concise and 
direct answer.
    Now, there was also the issue raised by the gentlelady from 
California, Ms. Waters, about gang problems, particularly in 
L.A., but across this country, especially in our inner cities.
    And we have had testimony from that table before the 
Immigration Subcommittee of this full Judiciary Committee about 
the percentages of gang membership that are illegals. And, in 
some cases, 75 percent to 100 percent of some of these gangs, 
being people that are unlawfully present in the United States, 
MS-13 would be in particular.
    If by some stroke of the magic wand all of the folks that 
are in the United States unlawfully woke up in a country that 
they lawfully could be in, how much might that reduce the 
problem of addressing gang activity in the United States?
    Mr. Mueller. That is difficult to give an answer to. I do 
believe that certain gangs have probably higher percentages of 
persons illegally in this country. But it is, I would say, 
somewhat difficult to ascertain.
    Mr. King. Would you concede that if we controlled our 
borders, stopped the bleeding there, so to speak, that that 
would be a great step in the right direction to help alleviate 
the pressure that is on you to control gang activity in the 
United States?
    Mr. Mueller. Well, certainly some of the gangs, one of 
which you have alluded to, MS-13, that is known, quite 
obviously, as having very close ties to El Salvador and 
individuals who move back and forth between El Salvador, 
Guatemala, Mexico, Honduras, and the like, and certainly to the 
extent that we can identify in coming through the border would 
assist us, in terms of addressing that particular challenge.
    Mr. King. I thank you. And the gentleman from Virginia, Mr. 
Scott, asked you for a report on the diversity numbers within 
your department.
    Mr. Mueller. Yes.
    Mr. King. And so that brings for me the question of, if you 
have to choose between diversity and merit when it comes to 
hiring employees and building out the personnel that you 
manage, how do you make that decision?
    Mr. Mueller. I think you can do both.
    Mr. King. And if you have to come down between the two, is 
it merit or diversity that prevails?
    Mr. Mueller. Merit and diversity prevail.
    Mr. King. Okay, Director----
    Mr. Mueller. I am not going to----
    Mr. King. Let me take another----
    Mr. Mueller [continuing]. Both, so I see no reason to----
    Mr. King. You know, I could ask you a hypothetical that 
would describe otherwise, but I think I will move on to 
something that this Congress will want to review, as well, and 
that is that you use part of your resources in foreign 
countries. And we recognize that.
    And as the testimony that has come out here on FISA, as the 
final part of FISA expires, and the director of national 
intelligence has testified a significant percentage of our 
access to intel goes away, has gone away, and will go away, as 
we move forward with FISA, doesn't that put the responsibility 
back on you and your department to be the last line of defense 
against terrorists here on the homeland and the United States?
    And if it does, then are you at some point, if we don't 
renew FISA, going to need to come back to Congress and ask for 
a lot more resources to protect Americans?
    Mr. Mueller. Well, I think everyone, ourselves included, 
want the resolution to the impasse with regard to FISA and the 
bill that was passed last August.
    It is important that we have clarity. It is important that 
the communication carriers have clarity as to what the law is. 
And to the extent that that could be done swiftly, I think it 
is in all of our interests to do so.
    Regardless of what happens there, we maintain our vigilance 
24 hours a day, 7 days a week. And we will use to the fullest 
all the tools that Congress has given to us.
    And we cannot do it alone. We have to do it with our 
counterparts in the intelligence community, as well as our 
counterparts overseas. And consequently, our hope is that there 
will be a FISA bill soon and it will benefit both us, as well 
as the intelligence community.
    Mr. King. Director, if Congress fails to act on FISA, do 
you believe that you will need more resources domestically to 
protect the American people?
    Mr. Mueller. Perhaps, but it would be very difficult, if we 
go to August, and the bill and the certifications that are 
already in place are allowed to lapse. Quite clearly, steps 
will have to be taken in a number of agencies to fill that gap, 
and presumably ours, as well.
    Mr. King. I thank you, Director. Appreciate your testimony.
    Mr. Chairman, I yield back.
    Mr. Conyers. Thank you very much.
    The Chair is pleased to recognize the able gentleman from 
Alabama, himself a former assistant U.S. attorney, Artur Davis.
    Mr. Davis. Thank you, Mr. Chairman. May I ask permission to 
trade my time with Ms. Wasserman Schultz, who has to Chair a 
Subcommittee hearing?
    Mr. Conyers. This is highly usual, but yes.
    Mr. Davis. It is, indeed. If I didn't love her so much, I 
wouldn't do it, Mr. Chairman.
    Mr. Conyers. All right.
    Ms. Wasserman Schultz. I thank the gentleman and the 
Chairman for his indulgence.
    Director Mueller, I just have a couple of things that I 
wanted to go over with you, a lot of which is what I talked to 
you about last year at the hearing on online child predators.
    But I did want to make you aware that overnight there was a 
fire that is suspected arson in the Chabad synagogue, the 
Chabad shul on Miami Beach. And it is being investigated as 
arson as we speak.
    It is the second suspected arson in a synagogue in Miami 
Beach in 6 months. And there were--obviously, we are in the 
middle of Passover, which is a sacred Jewish holiday, so it 
makes it all the more disconcerting and tragic.
    And I would hope--and if you would, at my request, if you 
would look into whether or not the FBI could investigate this 
as a potential hate crime, I would very much appreciate it.
    Mr. Mueller. We will do that.
    Ms. Wasserman Schultz. Thank you very much. ATF is on the 
scene, as well, but obviously it is starting to be more than 
troubling.
    I do want to acknowledge the presence of Ed Smart, who is 
with the Surviving Parents Coalition, here today and who has 
been the champion for advocating on behalf of children and who 
have been victims of online sexual predators and children who 
have been victims, period.
    And I want to differ with my colleague from Florida, my 
good friend, Mr. Keller, because, with all due respect, I don't 
think that the FBI is doing enough to pursue online child 
predators. I mean, it was clear in October when we had our 
hearing here that we are--there are about 500,000 known online 
child pornographers, people trading these images--these are 
depictions of sexual acts that are actually happening, crime 
scene photographs.
    And you do acknowledge that, even though I know you said in 
your testimony that you are investigating--that you have 
convicted more than 6,800 since 1996, which is 12 years, that 
is still less than 2 percent of what we know is out there, 
correct?
    Mr. Mueller. I am not certain of those figures. I would 
defer to you on that.
    Ms. Wasserman Schultz. Well, the testimony of James Finch, 
the assistant director of the FBI's cyber division, who wrote a 
letter in response to Senator Biden, he indicated in that 
letter that the FBI's Innocent Images Unit had a total of just 
one unit chief, 13 special agents, 10 analysts, and nine 
support staff. I mean, there are Internet blog sites that have 
larger staffs than that.
    Mr. Mueller. Well, I will say that we have almost 270 
agents working nationwide, but I am not going to tell you that 
that is sufficient to address this. As I have indicated to you 
before, it is tremendously important. It is an issue that is 
deserving of more resources.
    We put in a request for and did receive additional 
resources in 2008. We got an additional $2.4 million and 14 
positions. But that is, I will tell you, a drop in the bucket. 
It is a huge, huge issue.
    Ms. Wasserman Schultz. Do you still have more than 2,000 
investigators for white-collar crime, as compared to a couple 
of hundred for child exploitation?
    Mr. Mueller. I am not certain on the white-collar crimes. 
But certainly on violent crimes, for instance, I know we have 
something like 2,200. And white-collar crimes, it may be that 
high.
    Ms. Wasserman Schultz. Last year, when we had testimony 
from your staff, they did testify that there were more than 
2,300 investigators dedicated to white-collar crime and only 
about 232 dedicated to investigating child exploitation. Why is 
there such a disproportion in commitment, if you verbally are 
saying that you are committed to trying to ferret out child 
exploitation?
    Mr. Mueller. Well, because we are facing, have faced, and 
continue to face substantial white-collar criminal issues. We 
have got a--as I testified before, the subprime mortgage 
challenge. We have over 1,300 cases that have come to us.
    In the past, we have had Enron, HealthSouth, Qwest, any 
number of large, white-collar criminal cases. The white-collar 
criminal program also encompasses civil rights. It encompasses 
public corruption.
    Ms. Wasserman Schultz. Okay. But you couldn't possibly 
compare the harming and sexual exploitation of children and the 
rape of children being more important, that white-collar crime 
would be more important than that? I mean, you are certainly 
demonstrating that it seems to be by the disparate commitment 
and the commitment of staff.
    Mr. Mueller. Congresswoman, we agree. This is a huge 
problem. It is a question of resources.
    Ms. Wasserman Schultz. So if you agree----
    Mr. Mueller. I have put in requests and I have gotten 
additional resources. But----
    Ms. Wasserman Schultz. But you know what? The testimony 
that we had in October was that you were actually diverting 
resources from the Innocent Images program to other priorities. 
Can you at least commit that you will stop diverting funding 
from the Innocent Images program to other priorities in the 
Department of Justice?
    Mr. Mueller. Well--I will continue to look at our resources 
and try to adjust the priorities as I think----
    Ms. Wasserman Schultz. So you won't even commit that you 
will stop diverting funding from the Innocent Images program?
    Mr. Mueller. I will look at our resources over a period of 
time and do what I can on this priority.
    Ms. Wasserman Schultz. What specific FBI resources and 
personnel do you believe are worth diverting from their current 
use to rescuing children from child exploitation? Is there 
something you can identify?
    Can you commit to identifying other things that maybe 
aren't as high a priority, moving those resources to the 
hundreds of thousands of children that are being victimized 
online today? I mean, actions speak louder than words, Mr. 
Director.
    Mr. Mueller. I think if you look at our actions in the 
cases we have made, we have made substantial cases. I had 
referred earlier to the case that we made back in the fall, 
where we--or, actually, it was several months ago, where we 
took off 60 individuals who had, for a period of 15 years, been 
passing child pornography in an encrypted state. We did with 
our counterparts in the U.K.
    Ms. Wasserman Schultz. Mr. Director, my time has expired, 
and children need more than words. They need action. These are 
children that need to be rescued. We have the ability to rescue 
them if we ask for and pursue and get commitment from our 
leaders. &&&
    Mr. Mueller. I am happy to work together with you to get 
the resources we need, Congresswoman.
    Ms. Wasserman Schultz. And you said that last year, and it 
is still the same.
    Mr. Mueller. And I am still saying it.
    Ms. Wasserman Schultz. Okay. Well, now, if we could back it 
up with action, that would be great.
    I yield back the balance of my time.
    Mr. Conyers. Thank you.
    The Chair recognizes the Ranking Member of the Constitution 
Subcommittee, the gentleman from Arizona, Mr. Trent Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Thank you, Director Mueller.
    Director Mueller, you have had a pretty challenging day 
here already, but I want you to know that I certainly laud your 
commitment to protecting this country and to trying to do 
everything that you can.
    And it is always astonishing to me when we have people like 
you come forward, and we can't get our act together on FISA, 
which puts a double challenge upon you.
    And so I want to start out by saying how much I appreciate 
your service to the country, and that is certainly heartfelt. 
Now, you know when someone compliments you like that that they 
have a rather negative follow up sometimes, don't you?
    Mr. Mueller. Yes, sir. I am waiting for the other foot.
    Mr. Franks. Yes, and I, quite honestly, had these questions 
before I heard the last questioner, so I want you to know that. 
But I am going to have to follow up here, because I used to be 
the director of the Governor's Office for Children there when I 
was in Children's Department and wrote most of Arizona's child 
pornography legislation. So it is something that I continue to 
be very concerned about.
    And with that in mind, I guess the first thing I want to 
give you is the chance to answer the question: Do you think the 
FBI is making it a priority to investigate Internet child 
pornography and child exploitation? In your mind, are they 
making that a priority?
    Mr. Mueller. Yes, it is. But it is not amongst the 10 top 
priorities in this juncture. It is a priority in our cyber 
arena, and cyber is number three. But in cyber, we include 
intrusions, we include hackers, as well as the Innocent Images 
project.
    Mr. Franks. Well, is it true that you have really got the 
manpower right now to investigate about 1 percent of the leads 
that you discover? Is that an accurate thing? Or is that 
something----
    Mr. Mueller. I will have to get back to you on that. I am 
not certain that is accurate.
    Mr. Franks. Are you able to--I know sometimes companies 
overseas are the biggest challenge. Are you able to partner 
with other countries to try to triangulate and zero in on these 
companies that do this from, ``safe harbor'' from other 
countries?
    Mr. Mueller. Since October of 2004, we have had an 
international task force operating out of Maryland. Over that 
period of time, we have had 47 investigators from 21 different 
countries that have participated in that task force.
    But the spread of child pornography on the Internet is not 
limited to any one State. It is not limited to any one country. 
It is worldwide.
    And in order to be effective, we have to do it 
internationally and do it in an international task force. And 
this task force has been exceptionally effective, not only in 
bringing cases, but also educating and training others to 
cooperate with us when they go back to their home countries.
    Mr. Franks. Do you think we are winning or losing that 
battle?
    Mr. Mueller. We are losing.
    Mr. Franks. We are losing?
    Mr. Mueller. We are losing. It is growing on the Internet. 
Exponentially is probably too strong a term, but just about 
every crime there is has gravitated to the Internet and, in 
certain cases, the Internet has provided the vehicle for 
expansion that otherwise would not be there, and that is 
certainly true with child pornography.
    Mr. Franks. Well, let me just say I know that you are very 
concerned about it, as well. But I will tell you, you know, 
sometimes in times when I used to give speeches on this subject 
I would remind people, as the poet did, that there comes a time 
in every child's life when the door to childhood quietly closes 
forever. And after that, no mortal power on Earth can ever open 
it again.
    And I would just--I guess my final question here to you, 
along those things, is that this is something that is 
profoundly important. What can we do with you to help you, 
number one, with the legal mechanisms?
    And in some States, you know, they don't have the statute 
that is necessary to prevail. Ancillary evidence rules, all 
kinds of things make it difficult for us to actually win in 
court. What legislative mechanisms do you need to make this a 
priority so that we can go from losing to winning? And what 
funding needs do you have so we can help you make this happen?
    Mr. Mueller. I do think that this is not something for just 
one agency to undertake. My own view, and, again, it relates to 
task forces, the necessity--we have ICAC task forces around the 
country, but they need to be funded, State and local law 
enforcement--focus initially on violent crime, need to develop 
the expertise, the resources to participate on these task 
forces.
    We need to grow the task forces within the United States 
and develop the relationships with similar task forces 
overseas. I mentioned that investigative mechanisms that will 
enable us to obtain the records that are necessary from ISPs, 
from credit card companies----
    Mr. Franks. Do you need additional legislation to that 
effect?
    Mr. Mueller. Well, again, it goes to records retention. I 
do believe that records retention would be of assistance in 
terms of addressing these problems.
    It is not just one agency. It is a number of Federal 
agencies, the State and local law enforcement, all to be 
integrated in addressing what is an increasing problem.
    Mr. Franks. Well, Mr. Chairman, maybe the gentleman would 
supply this Committee with some ideas as to what we might do in 
that regard. From his perspective, as an investigator, as 
leading to prosecutions, and let's try to work together in a 
bipartisan area, because if child pornography is not 
bipartisan, then I think maybe it is time for us all to walk 
out of here.
    Mr. Conyers. That would be most welcome.
    Mr. Franks. Thank you, Mr. Director.
    Mr. Conyers. Thank you.
    The Chair recognizes the gentleman from Alabama, himself a 
former assistant United States attorney, Artur Davis.
    Mr. Davis. Thank you, Mr. Chairman.
    Mr. Mueller, I have a couple of questions or two sets of 
questions on the national security front. Let me turn to Mr. 
King's questions and the questions of some other Members 
regarding FISA.
    In your last set of comments regarding FISA, you indicated 
the importance of Congress reauthorizing the Act or coming to 
some kind of an agreement around the Act by August. And I 
assume that was a very deliberate choice of words on your part.
    As you know, there has been some controversy over the 
impact of the Protect America Act expiring back in February. So 
let me ask you directly: Has the expiration of the Protect 
America Act imperiled any efforts by the Bureau to conduct 
intercepts since its expiration?
    Mr. Mueller. I cannot speak to a specific case. I can say 
that there is uncertainty in the legal counsel's office of 
communications carriers as to the current State. And it----
    Mr. Davis. Is there any----
    Mr. Mueller [continuing]. Affects our ability to get 
information as fast and as quickly as we would want.
    Mr. Davis. Is there any instance when you or the Bureau has 
attempted to put an intercept in place since the expiration of 
the Protect America Act and you have been denied because of the 
expiration?
    Mr. Mueller. I believe there has been a delay attributed to 
it, yes.
    Mr. Davis. Has there been a single instance when the 
Bureau's request to conduct an intercept has been denied 
because of the expiration of the Protect America Act?
    Mr. Mueller. Not that I am aware of.
    Mr. Davis. The President of the United States conducted a 
press conference shortly after the expiration of the Protect 
America Act, and the President made the representation that 
lives were being threatened, that lives could be lost. Do you, 
Mr. Director, know of a single life that has been compromised 
or threatened in the interim between the expiration of the Act 
and today?
    Mr. Mueller. I am not familiar with those comments, but----
    Mr. Davis. Would they be accurate?
    Mr. Mueller. I do not know the basis upon which a statement 
was made, if, indeed, it was made.
    Mr. Davis. Do you know of a factual basis that would permit 
the President to make that statement?
    Mr. Mueller. I am not myself personally familiar with that 
statement or the basis for which the statement was made.
    Mr. Davis. Do you know of any factual basis that would 
permit that statement to be truthfully made?
    Mr. Mueller. I will say that my great concern is the 
uncertainty that we currently have in terms of----
    Mr. Davis. Do you know of any factual basis----
    Mr. Mueller [continuing]. In terms of----
    Mr. Davis. You have made that point, yes.
    Mr. Mueller [continuing]. Communications carriers----
    Mr. Davis. Yes, you have made that point, and I accept it. 
I will leave the topic if you will just give me a yes or no. Do 
you know of any factual basis for the President or anyone 
saying that lives have been threatened or compromised or lost 
because of the expiration of the Act?
    Mr. Mueller. And I think I answered it, saying I am not 
certain of the statement, but I personally am not aware of the 
basis upon which it was made.
    Mr. Davis. All right. I will take that as you know of no 
factual basis and move on to my next area.
    During the very beginning of your tenure, Mr. Mueller, 
during the first years of your tenure, after we adopted the 
color-coded terror alert system, with some regularity the 
Administration would raise the terror alert level. When is the 
last time the terror alert level has been raised?
    Mr. Mueller. I can't recall.
    Mr. Davis. Well, can you turn to your staff and just give 
me a ballpark as to the last time it has been raised? Because 
there is an objective answer to that. I know it has been so 
long we have been at one color.
    Mr. Mueller. Probably a couple of years ago. That is the 
best we can come up with.
    Mr. Davis. All right. It has been a while.
    Mr. Mueller. It has.
    Mr. Davis. So I guess we can conclude one of two things 
from that, that we have not faced a level of threat that arise 
or level of imminent threat that would cause the alert system 
to be raised or that the alert system has been abandoned as a 
practical matter. Which of those is accurate?
    Mr. Mueller. Well, let me say, I can't remember--in August 
of 2006, where there were individuals in the U.K. who 
contemplated bringing liquid explosives on as many as 8 to 10 
planes and blowing them up across the Atlantic.
    Mr. Davis. We remember that.
    Mr. Mueller. That was certainly an area where we----
    Mr. Davis. So that would be----
    Mr. Mueller [continuing]. Substantial threat. I am not 
certain whether we raised the level then.
    Mr. Davis. Right.
    Mr. Mueller. I think what happened is we raised the level 
at airports----
    Mr. Davis. Right.
    Mr. Mueller [continuing]. But not across the country.
    Mr. Davis. Let me--because my time is limited--I don't 
actually believe that we raised the alert then. I think there 
was some discussion about it. I think--and since no one 
contradicts me, I will speak to my memory--I don't think that, 
frankly, we have raised the alert level since 2004.
    And I am happy to accept contradiction if anyone in the 
room wishes to provide it, but I believe it was 2004.
    So I would ask you, going forward----
    Mr. Mueller. Yes, sir.
    Mr. Davis [continuing]. There will be a new President, one 
of three individuals, and you will serve for some period of 
time under that President, I believe. Will it be your 
recommendation to the next President that we continue the 
color-coded system?
    Mr. Mueller. I haven't given some thought to that. Again, 
my recollection is, is that we may have--selective raising of 
the alert level during that period of time, but not a 
countrywide--we will have to get back to you on that, though.
    Mr. Davis. And I would just end, if I can, on this 
observation, Mr. Mueller, is I think you get the point that I 
am driving at. In some circles, there is a belief that the 
Administration was quick to raise it during the run-up to the 
2004 presidential elections. That political imperative, having 
been secured, it has not been raised since then.
    That is something that does bother some of us, because it 
does raise a practical question, which of two things happened? 
Is it that we pretty much abandoned the system since the 2004 
election and you all haven't bothered to tell us? Or is it that 
we have not had a level of threat rise to the level of 
imminence that would justify the alert level going up?
    Either one of those things would strike me as being 
relevant to this Committee from a policymaking standpoint.
    Mr. Mueller. I know there is a belief out there that 
Administration officials would raise the concerns at a 
particular point of time for political reasons. I personally 
have never seen that.
    In each case in which there has been information put out, 
it has been based on viable information that had caused us----
    Mr. Davis. And understand I am in no way questioning your 
integrity. I am simply making a point that it is a fact that it 
has not happened since the 2004 election cycle and it does 
raise questions going forward as to whether it has been 
abandoned or whether we just haven't had an imminent threat in 
4 years.
    Mr. Mueller. I would say, again, that the contradictory 
fact on that is the fact, in summer of 2006, in August of 2006, 
where we had that--again, I am not certain where the level was 
raised, but I can tell you that the--I remember being in a 
press conference with Michael Chertoff and the rest, so the 
country became very much aware of that threat----
    Mr. Davis. Certainly.
    Mr. Mueller [continuing]. Whether the level was raised or 
not.
    Mr. Davis. Well, but my whole question went to the 
viability and the reasonableness of our continuing to have the 
color-coded system. And, frankly, I think you made my point.
    If a threat that you believe wasn't an important one, did 
not justify, or for whatever reason didn't militate on the 
level being raised, it may tell us something about the lack of 
viability of the color-coded system.
    Mr. Conyers. Thank you.
    The Committee recognizes the Ranking Member from Texas, 
Judge Louie Gohmert.
    Mr. Gohmert. Director, I want to follow up on the FISA 
issue some. Is it the FBI that is the primary agency that would 
do wiretapping of foreign terrorists on foreign soil?
    Mr. Mueller. No.
    Mr. Gohmert. Who would that be?
    Mr. Mueller. NSA.
    Mr. Gohmert. All right. So that obviously would be a 
different agency?
    Mr. Mueller. Correct.
    Mr. Gohmert. That is not one you control and are here to 
testify about, correct?
    Mr. Mueller. That is correct.
    Mr. Gohmert. Now, I am intrigued, though. Here we have not 
renewed FISA. We have cut the ability of our intelligence 
community to gather information about what terrorists are doing 
on foreign soil.
    Then we bring the FBI director in here and want to know 
from him, since you are no longer able to gather this 
intelligence in the same way you did before, what have you 
missed? Well, if you are not gathering the intelligence, how 
would you know what you have missed? That is my point.
    You had said a while ago that the FBI, one of your three 
missions was counterintelligence. But the longer I am here in 
Congress, the more I think maybe that is the number-one mission 
in Congress, is to act counter to intelligence.
    But, anyway, I want to ask you about Ramos and Compean 
case, though. Is there any post-conviction investigation that 
is going into the facts of that case that might help the 
President to determine whether or not to give a pardon?
    Mr. Mueller. Not to my knowledge. But I don't know--that 
was a Department of Homeland Security case, so I am not certain 
what----
    Mr. Gohmert. So the FBI didn't work that case?
    Mr. Mueller. I do not believe so.
    Mr. Gohmert. All right, thank you.
    And let me go to the NSL letters. There had been a lot of 
discussion about that. You had mentioned earlier about the 
concerns, the abuses of the exigent letters.
    Has the FBI terminated use of exigent letters or are those 
still being used?
    Mr. Mueller. No, they are not being used.
    Mr. Gohmert. And I think my friend, Mr. Lungren, had 
alluded to it, but would you--or one of my colleagues. How 
would the tradeoff of the NSLs for broader administrative 
subpoena authority be better for the FBI? I really don't--I am 
curious.
    Mr. Mueller. The only one area that I could see that would 
be beneficial would be putting in one statute, combining in one 
statute the authorities which would eliminate some of the 
confusion and eliminate some of the complexity of knowing the 
appropriate basis and use of particular NSL. That would be one 
benefit from it.
    But I would hate to have lose--again, have the standard 
change to back what it was before September 10 or September 11, 
before September 11, in the course of devising a new mechanism 
for issuing of that paper.
    Mr. Gohmert. I think you have got the impression that we 
are all extremely concerned about potential abuses there, so 
whatever we can do to help diminish that possibility.
    When you were here before, last year, we have gotten into 
this some, but with regard to Representative Jefferson's case--
I know it is an ongoing case, and obviously you can't discuss 
anything that might compromise that--but I had previously 
understood Deputy Attorney General Paul McNulty to say he was 
aware that there were secured copies of the documents in 
Jefferson's office that could be made available to him, but he 
wanted the originals, not the copies.
    Are you aware of the existence of copies at the time of the 
raid on his office?
    Mr. Mueller. No, sir.
    Mr. Gohmert. Let me ask you about the terrorist 
surveillance program. What is the status of that and its 
operation under FISA?
    Mr. Mueller. Again, I would defer to my counterparts in 
other agencies on that. And, also, it is classified, so I 
couldn't speak to it here.
    Mr. Gohmert. Well, let me ask you, though, because I am 
wondering if the FBI has a role in investigating the leak of 
the TSP?
    Mr. Mueller. To the extent that--yes. Yes.
    Mr. Gohmert. The I.G. recently reported that the terrorist 
watch list contains unacceptable errors and that the FBI is 
delayed in reporting names to the terrorist watch list by up to 
4 months. Why the delay there?
    Mr. Mueller. Well, I think what the I.G.'s report showed 
that, in the nominations process for the terrorist screening 
center, we had appropriate criteria and quality controls, but 
we did not update the list as often as we should. As well, 
field offices had submitted incomplete and occasionally 
inaccurate information.
    There were 18 recommendations made by the Inspector 
General. Four have been closed. Twelve of those recommendations 
are awaiting closure, which leaves only two. So we have taken 
the I.G.'s report and followed up on each of the 
recommendations and believe that we are well on the way to 
solving those.
    Mr. Gohmert. All right, thank you.
    I see my time has expired.
    Thank you, Mr. Chairman.
    Mr. Conyers. Thank you very much.
    The Chair recognizes the able gentleman from Minnesota, 
Keith Ellison.
    Mr. Ellison. Thank you, Mr. Chair.
    And, also, I want to thank you, as well, Mr. Mueller. You 
have been patient and tried to answer the questions. Mortgage 
fraud, online sexual abuse, terrorism, NSLs, FISA, TSP, we have 
asked you about all those things. How does this affect Indian 
country?
    I mean, we are talking about a region of our country that 
really does depend upon the FBI for law enforcement services, 
and yet we have seen high rates of violent crime and record 
rates. How does all of this impact Indian country? And how 
could we get some law enforcement resources there?
    Mr. Mueller. We have tried to maintain our personnel in 
addressing crimes on Indian country. We focus on those crimes 
where we really can make a difference, the violent crime and 
the like.
    Our hope is that other agencies can grow to fulfill or fill 
some of that mission. But in the meantime, to the extent that 
we are necessary, I want to keep our persons there.
    I think I indicated we have something like 16 Safe Trails 
task forces, which are task forces relating to Indian country 
that we operate along with State and local law enforcement. 
Given the various responsibilities that we have, it is one that 
I think is important.
    And personally, I believe if there is anything that a 
Federal entity can do to reduce the level of violence in our 
communities, including communities on Indian country, we will 
try to do so, understanding that we have to prioritize and we 
are under financial and personnel constraints.
    Mr. Ellison. Has there been a decline in the number of law 
enforcement personnel, Federal law enforcement personnel in 
Indian country since, say, 2001?
    Mr. Mueller. I would have to check. I have tried to 
maintain the safe staffing, but I haven't checked on it in a 
year or so. So I would have to get back to you on that.
    Mr. Ellison. Maybe somebody with your staff knows?
    Mr. Mueller. I think we would have to get back to you. I 
really haven't addressed the question in a year or so, so I 
think we would have to get back to you.
    Mr. Ellison. Well, let me tell you. I have got a lot of 
constituents who are very concerned about this. And I would 
count on you to get back with me on it.
    Mr. Mueller. We will.
    Mr. Ellison. Also, you know, in the Muslim community, 
America has a great Muslim community, several million people. 
And the post-9/11 world, there has been greater attention on 
this community. I am sure you wouldn't dispute that.
    My question is, how important are outreach efforts in the 
Muslim community, given that the overwhelming number of Muslims 
condemn, are opposed to terrorism, or would be happy to report 
on somebody who was committing, plotting terrorism? How 
important are outreach efforts into the Muslim community for 
the FBI?
    Mr. Mueller. Tremendously important. We have, since 
September 11, in every one of our offices, every one of our 
field offices, we have had substantial outreach efforts. I am 
sure you are familiar with them in your community.
    We continue to have them both on the national, as well as 
in the State and the local level.
    And every opportunity I have, I re-affirm the fact that 
99.9 percent of Muslim-Americans or Sikh-Americans, Arab-
Americans are every bit as patriotic as anybody else in this 
room, and that many of our cases are a result of the 
cooperation from the Muslim community in the United States.
    One of the worst things that could happen in the Muslim 
community is we have another attack such as September 11. 
Nobody wants it, whether it be ourselves in the FBI or those 
members of the Muslim community.
    Mr. Ellison. So thank you.
    So let me just ask this. I mean, I know you are well aware 
that, in May 2007, prosecutors down in Dallas named about 306 
individuals and groups as unindicted co-conspirators in the so-
called HLF case.
    To my knowledge, no one was convicted. And many people came 
within like 11 to 1 to get acquitted. And I am sure you know 
the history of the case, am I right?
    Mr. Mueller. I believe that case is still in litigation.
    Mr. Ellison. It is still on litigation, but you know that 
there was--the jury came back hung and that many of the 
verdicts were 11 to 1 to acquit. You know that? Not all the 
verdicts; many did.
    Mr. Mueller. I am not--I understood it was hung. I am not 
certain that I am familiar with the breakdown of the jury on 
any particular defendant.
    Mr. Ellison. But I don't want to get stuck in the weeds on 
the point. The fact is, 12 Americans sat in judgment of this 
case, listened to all the evidence, and didn't convict. You 
would agree with that?
    Mr. Mueller. There was a hung jury.
    Mr. Ellison. That means there was no conviction. Come on, 
Mr. Mueller.
    Mr. Mueller. There was no--there was no conviction.
    Mr. Ellison. That allows me to go on and ask my question. 
By naming all these 306 individuals and organizations as 
unindicted co-conspirators, naming them explicitly, what impact 
did that have on your effort to build better relations in the 
Muslim-American community?
    Mr. Mueller. I am not certain it had any impact.
    Mr. Ellison. I mean, do you----
    Mr. Mueller. I have not heard about an adverse impact as a 
result of that particular case.
    Mr. Ellison. Okay. Well, let me ask you this. I mean, there 
are groups on--the groups that were named in there, there was 
no verdict against them, because they were unindicted, right?
    I mean, do you think--what kind of effect do you think--
message it sends to them, in terms of your ability to reach out 
to the community, gain cooperation, gain trust? Don't you think 
it might have a deleterious effect? Doesn't your common sense 
tell you that?
    Mr. Mueller. I understand what you are saying. I take your 
point.
    Mr. Ellison. And could you elaborate on what we do about 
this, given that it is arguable that these unindicted co-
conspirators that were explicitly named, not kept under seal, 
but explicitly identified could well be in violation of DOJ 
policy, which I know you don't control? What would you--do you 
think there is a better way to do this kind of thing?
    Mr. Mueller. All I can tell you, sir, is it is in 
litigation. And I am precluded from discussing it because it is 
in litigation.
    Mr. Ellison. Am I done?
    Mr. Conyers. Your time is up, but you can talk some more, 
if you would like.
    Mr. Ellison. Okay, thank you.
    You know, one of the questions that Representative Baldwin 
pursued was getting a tighter handle on this watch list 
process. I can't tell you how many people, most of whom are 
Muslim or have Arabic names, come to me, saying, ``Wow, you 
know, I got humiliated, delayed, and it is often and it is 
common. I have never done anything other than try to be a good 
citizen.''
    What recommendations do you have for us that would help us, 
one, protect America and, two, tailor this watch list in a way 
that doesn't sweep up all these people who have done nothing 
wrong, other than just try to be good Americans?
    Mr. Mueller. Each agency has a redress officer and a 
redress office. So the recommendation is to file the 
application with the redress office.
    Mr. Ellison. But, Mr. Mueller, you would agree with me that 
that is pretty cold comfort to somebody who has been delayed 
for 3 hours from their flight and everything they had to go do. 
We need a better process than just call the redress office.
    And I guess I was hoping, given that your commitment to 
outreach and all, that you would be a little bit more willing 
to explicitly talk about things we could do to offer 
legislation to tailor a watch list. Are you telling me just go 
to the office and that is it?
    Mr. Mueller. Well, we have set up a redress process. I am 
always open to suggestions on how it can be improved. But it 
seems to me that you definitely need a redress process.
    I am not disagreeing about the frustration of being held up 
for 3 hours.
    Mr. Ellison. But you have heard it.
    Mr. Mueller. I agree with you. But we have put in place a 
redress process, and I am always open to suggestions as to how 
to make that redress process better.
    Mr. Ellison. How would it compromise national security to 
be able to have people ask if they are on it and, if they are, 
to have some kind of process to set forth evidence to 
demonstrate that they should be off of it?
    Mr. Mueller. And that is part of the redress process, as I 
understand it.
    Mr. Ellison. But am I wrong? I could be wrong. I thought if 
you asked if you were on it, you might not even be told whether 
you are on it or not.
    Mr. Mueller. You may not be. But there is a redress 
process.
    Mr. Ellison. How many people have been taken off the watch 
list since 2001?
    Mr. Mueller. I believe--I am not certain. I would have to 
get back to you.
    Mr. Ellison. You know, is there a chance that what we have 
here is government workers who are like, ``Look, I am going to 
err on the side of just putting everybody on it because I don't 
want to be the one who didn't put somebody on it who maybe I 
should have, so I am going to have a very, very low bar to put 
somebody on this list,'' which they practically can never 
really get off of, notwithstanding the redress process?
    Mr. Mueller. No, I think there is a technical basis for 
going on the terrorist screening center watch list. And you 
have to meet certain criteria.
    Mr. Ellison. Is that published?
    Mr. Mueller. I am not certain it is. I don't believe it is.
    Mr. Ellison. Could I----
    Mr. Mueller. But there is a criteria.
    Mr. Ellison [continuing]. Published?
    Mr. Mueller. I would have to get back to you on that.
    Mr. Ellison. Okay, so you don't know what the criteria is, 
right, right now?
    Mr. Mueller. Right offhand, I don't know all the criteria. 
I can't----
    Mr. Ellison. What are a few of the big ones?
    Mr. Mueller. Pardon?
    Mr. Ellison. What are a few of the big ones?
    Mr. Mueller. It is based on the evidence that you have in 
our files to determine whether or not there has been an 
association with terrorism.
    Mr. Ellison. Does the person who has been watch-listed have 
an opportunity to challenge those things?
    Mr. Mueller. I am not certain. I don't believe so, because 
you would not be exposed to the information we have.
    Mr. Ellison. Right. So if you are on the list, then you 
say, ``Look, I shouldn't be on this list,'' but you are not 
told why you are on the list, so you can't really rebut why you 
are on the list. Wouldn't you call that defect in the redress 
process?
    Mr. Mueller. Well, again, I would be happy to have the 
persons responsible for the watch list sit down with you and 
explain in more detail how we handle the watch list.
    Often, it happens that the name is similar to another name. 
And through the redress process, we get identifiers and 
identify you as being an individual who may have the same name 
as somebody on the watch list, but because of the identifiers, 
your particular name is no longer associated with the name on 
the watch list.
    Mr. Ellison. Mr. Mueller, I want to work with you to narrow 
and tailor this watch list process.
    Mr. Mueller. Yes, sir.
    Mr. Ellison. And we want everybody who is supposed to be 
there should stay on. But a lot of the people who shouldn't be, 
I am hoping we can get them off.
    Mr. Mueller. Thank you, sir.
    Mr. Ellison. Thank you.
    I yield back.
    Mr. Conyers. Well, thank you very much.
    Does the gentleman from Texas, the Ranking Member, have any 
closing comment?
    Mr. Smith. Mr. Chairman, no official closing comments.
    I do want to thank the director for appearing. I think we 
have had a good hearing today, and I think he has been very 
responsive to all the questions that have been directed toward 
him.
    As I understand, Director Mueller, your appointment, you 
became director of the FBI 1 week after 9/11?
    Mr. Mueller. One before, 1 week before 9/11.
    Mr. Smith. I mean 1 week before. That may give rise to a 
new definition of on-the-job training. I had forgotten that it 
was that close.
    So appreciate all that you have been through and appreciate 
your good record. And as I said earlier, you and other law 
enforcement agencies and intelligence-gathering agencies, as 
well, have obviously done an outstanding job, since we haven't 
had another attack.
    Should we endure another attack, that is not necessarily a 
reflection on you, because I think--frankly, I think most 
Americans have been surprised there hasn't been another attack. 
If you were to ask anybody a few weeks after 9/11 if we were 
going to be attacked again, I suspect a high percentage of the 
American people would have thought that by now that would have 
occurred.
    I am grateful that it has not, and I think that is largely 
do to the good service that you have performed, as well as 
other agencies have performed. So I thank you for that.
    I don't have any other comments, Mr. Chairman.
    Mr. Conyers. Thank you.
    Does the gentleman from California, Dan Lungren, have any 
closing comments?
    Mr. Lungren. Thank you, Mr. Chairman.
    I just wanted to say, in that last exchange you had with 
the gentleman from Minnesota, one of the concerns we have had 
as we looked at it in the Homeland Security Committee of people 
on the watch list is that, because of concerns of privacy, we 
don't have the list of identifiers that allow us to take people 
off.
    DHS got in a little bit of trouble because they had a list 
with information of people that they tried to run it against. 
And one of the concerns we have in the Homeland Security is, 
can we create a system where we query files that are available 
in the private sector--therefore, we don't retain that 
information--to get people off?
    The only other thing I was going to say, Mr. Mueller, is 
that, when you were asked about the failure of the Congress to 
re-enact the Protect America Act, I would just remind my 
colleagues that, in testimony before this Committee, it was 
Admiral McConnell, the DNI, who said that, prior to the 
enactment of the Protect America Act, which has now expired--
these are his words--``We were not collecting somewhere between 
one-half and two-thirds of the foreign intelligence information 
that would have been collected.''
    That scenario still prevails today for new investigations, 
not those that you referred to that started before last August 
and continued last August.
    Mr. Mueller. That is correct.
    Mr. Lungren. So that is the concern I think that we are 
attempting to address, those of us who raise this, is the new 
targets that are out there. And presumably we are missing 
between one-half and two-thirds, if the DNI is correct.
    And I thank you for your testimony.
    Mr. Conyers. I thank the gentleman from California.
    Thank you, Director Mueller. We have had a very meaningful 
hearing today that started somewhere shortly after 10:15 this 
morning.
    Serious problems concerning the National Security Letters' 
abuse still continue, including the collection of private 
information on innocent people who are not relevant to any 
authorized investigation.
    And although the Federal Bureau of Investigation has taken 
some positive steps, action at the FBI field office level is 
needed, along with legislative reform, such as measures that 
have been proposed by Members of this Committee.
    The FBI action in the Renzi and Jefferson cases raises in 
my mind serious concerns about the protecting of constitutional 
privileges of the Members of Congress, as the court has already 
found in the Jefferson case. The FBI must act promptly to set 
up procedures in this area.
    And it is shocking to me that FBI standards on 
interrogation have not apparently been followed by the 
Department of Defense or the CIA.
    Now, the FBI deserves credit for establishing these 
standards, but the fact that they are not followed by all 
Federal agencies is a problem that we need in this Committee to 
examine far more closely and carefully than we have up until 
now.
    And so we thank you, again, and your staff for appearing 
here this morning and afternoon for a very important session. 
Thank you.
    Mr. Mueller. Thank you. Thank you, sir.
    Mr. Conyers. The Committee stands adjourned.
    Members will have 5 days to add their comments in the 
record. The Committee stands adjourned.
    [Whereupon, at 1:35 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

   Responses to Post-Hearing Questions from the Honorable Robert S. 
   Mueller, Director, Federal Bureau of Investigation, Washington, DC

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
